                                   EVALUATION




FY 2010 FISMA
EVALUATION REPORT




Report No.: ISD-EV-MOA-0001-2010   November 2010
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 3
   Objective ............................................................................................................. 3
   Background ......................................................................................................... 3

Findings................................................................................................................... 5
   IT Inventory......................................................................................................... 5
   Certification and Accreditation ......................................................................... 10
   Security Configuration Management ................................................................ 16
   Incident Response and Reporting ...................................................................... 20
   Security Training ............................................................................................... 23
   Plan of Action and Milestones .......................................................................... 29
   Remote Access .................................................................................................. 32
   Account and Identity Management ................................................................... 35
   Continuous Monitoring ..................................................................................... 39
   Contingency Planning ....................................................................................... 43
   Oversight of Contractor Systems ...................................................................... 45

Conclusion and Recommendations ....................................................................... 48
   Conclusion......................................................................................................... 48
   Recommendation Summary .............................................................................. 48

Appendix 1: Scope and Methodology................................................................... 51
   Scope ................................................................................................................. 51
   Methodology ..................................................................................................... 52

Appendix 2: Summary of FISMA Results (FY 2003 to 2010) ............................. 53

Appendix 3: Related OIG Reports, Management Advisories, and Evaluations ... 56
Results in Brief
Our fiscal year (FY) 2010 FISMA Evaluation Report reveals major
inconsistencies in the U.S. Department of the Interior’s (DOI) Information
Technology (IT) security program. These inconsistencies are a reflection of DOI’s
decentralized approach to governing IT security. Each bureau manages its own
security program, as the Department Chief Information Officer does not have the
authority to unify and align the Department’s IT security program.

We found several DOI systems missing or not clearly identified in inventory
databases, and that potentially helpful investments were sitting idle on shelves.
We also identified key program areas that are not consistently implemented, such
as incident response, configuration management, and remote access.

   •   Our unannounced tests of DOI’s incident response capabilities revealed
       that social engineering gained us network access and access to sensitive
       information following requests to reset the passwords of key personnel.
       We found that these potential security breaches occur without being
       identified and fragmented reporting processes enable these events to
       continue.
   •   Our testing revealed that bureaus have installed multiple Web browsers
       that are not compliant with the Federal Desktop Core Configuration
       standards.
   •   We determined that DOI bureaus continue to use multiple remote access
       solutions to which the Department has no insight. We identified one of
       these remote solutions, which the Department did not know that the
       bureau had implemented. The bureau was forced to shut it down until it
       could be formally documented and risks assessed.

We found that the information that authorizing officials use as the basis for their
operating decisions is incomplete and inaccurate. This information, which comes
to them in a package containing the system security plan, security assessment
reports, and plans of action and milestones, should be complete enough for an
authorizing official to assess the risks of operating a system. More than half the
packages we found were incomplete or lacked the necessary quality to provide
authorizing officials with an accurate view of the system security posture. This
inadequacy presents further challenges for the Department as it prepares to meet
new National Institute of Standards and Technology requirements to move this
process toward ongoing security authorizations.

We also found promising programs in DOI’s IT security. One such program
requires that all DOI employees and contractors use a personal identity
verification card to log into the network. This will significantly increase network
and remote access security. To date, 76 percent of employees and 23 percent of
contractors are enrolled.

                                                                                      1
Also, the Department launched the DOI Innovation and Efficiency Team (DIET)
Initiatives in June 2010. Although DIET is still in the planning stages, this
initiative promises to provide long-term solutions to cost efficiency.




                                                                                2
Introduction
Increased cyber threats have resulted in the establishment of security standards
meant to unify the Federal Information Security Management Act (FISMA)
framework for the Federal Government.

Fiscal year (FY) 2010 has seen the greatest changes to FISMA requirements since
its inception in 2002. The U.S. Department of the Interior (DOI or Department)
have not managed to keep pace. Weaknesses in fundamental areas of the
Department’s Information Technology (IT) security program remain unresolved.

Objective
This report summarizes the results of our FY 2010 FISMA Evaluation of the
Department’s IT security program. We evaluated DOI’s compliance with the
requirements of the Federal Information Security Management Act and related
information security policies, procedures, standards, and guidelines. This report
also contains recommendations to enhance DOI’s information security program
and move toward full FISMA compliance.

Background
Congress enacted Title III of the E-Government Act of 2002, Federal Information
Security Management Act, in response to concerns about the security of Federal
information and IT systems. FISMA’s primary intent was to facilitate progress in
correcting agency information security deficiencies and improve oversight of
Federal information security programs. FISMA § 3545(a) requires the Office of
Inspector General (OIG) to perform an annual evaluation of the Department’s
information security program and practices.

FISMA also requires the Secretary of Commerce to prescribe compulsory,
binding standards and guidelines pertaining to Federal information systems. As a
component of the Department of Commerce, the National Institute of Standards
and Technology (NIST) is required to develop Federal Information Processing
Standards, which define the minimum requirements for information security and
system security categorizations. NIST is responsible for developing information
security standards and guidelines, including minimum requirements for Federal
information systems. NIST introduced two publications in the last year that have
significantly changed Federal agency information security programs. The revised
guidance includes:

   •   NIST Special Publication 800-37, Revision 1, “Guide for Applying the
       Risk Management Framework to Federal Information Systems;” and
   •   NIST Special Publication 800-53, Revision 3, “Recommended Security
       Controls for Federal Information Systems and Organizations.”



                                                                                    3
These publications updated IT security controls to address cyber threats,
emphasize IT risk management and continuous monitoring, and recognize that
authorizing officials need to have access to near real-time monitoring.
Compliance with FISMA is no longer dependent upon a stagnant certification and
accreditation package, rather the requirements have moved toward ongoing
information system authorizations.

The Office of Management and Budget (OMB) must report annually to Congress
on all Federal agencies’ FISMA compliance. OMB used CyberScope as the
automated FISMA data collection instrument for reporting on agency compliance.
CyberScope contained 11 areas for OIG input in FY 2010:

   •   Certification and Accreditation Program;
   •   Status of Security Configuration Management;
   •   Status of Incident Response and Reporting Program;
   •   Status of Security Training Program;
   •   Status of Plans of Action and Milestones Program;
   •   Status of Remote Access Program;
   •   Status of Account and Identity Management Program;
   •   Status of Continuous Monitoring Program;
   •   Status of Contingency Planning Program;
   •   Status of Agency Program to Oversee Contractor Systems; and
   •   Financial Audit.

Enterprise Initiative
The Department launched the DOI Innovation and Efficiency Team (DIET)
Initiatives in June 2010 “to identify and implement immediate and long-term
solutions to realize cost savings, cost avoidance, cost efficiencies and/or
innovations across the DOI IT environment.” DIET, which is still in the planning
phase, includes objectives and projects that, once implemented, promise to
contribute to the IT Security Program.

The DIET Initiatives include:

   •   Infrastructure consolidation (of facilities, telecom, servers and storage,
       applications and data, and IT asset inventory);
   •   Data center consolidation;
   •   Unified messaging;
   •   Risk-based Information Security Services;
   •   Radio site consolidation; and
   •   Workstation ratio reduction.




                                                                                    4
Findings
The findings in this evaluation are organized by the 11 Information Technology
(IT) security program areas: IT inventory, certification and accreditation, security
configuration management, incident response and reporting, security training,
plans of action and milestones, remote access, account and identity management,
continuous monitoring, contingency planning, and oversight of contractor
systems.

We also include all relevant policies, guidance, requirements, regulations, or
definitions and answer whether or not the Department’s bureaus follow that
existing guidance.

IT Inventory
Policy
The U.S. Department of the Interior (DOI or Department) has established a policy
for maintaining IT inventory, but confusion over the policy has impacted its
accuracy. Managing the DOI IT infrastructure is dependent upon an accurate
inventory and provides a foundation for an effective IT security program and
FISMA compliance.

The March 2008 DOI IT Security Policy Handbook (Version 3.1), requires
bureaus to “track all IT system components and security status by maintaining a
comprehensive inventory in the DOI Enterprise Architecture Repository
(DEAR).” The Chief Information Officer (CIO) issued a directive 1 establishing
DEAR “as the official data source for DOI enterprise architecture artifacts, [and]
all DOI information systems.” The directive also states that the bureau CIOs are
responsible for annual written assurance that data in DEAR is accurate and
complete.

DOI also implemented the Cyber Security Assessment Management (CSAM)
solution, which identifies IT system inventory. Its primary purpose, however, is to
be the official repository for preserving Certification & Accreditation (C&A)
Package documentation, Plans of Action and Milestones (POAM), and Internal
Control Reviews for each system in inventory. A September 23, 2008
Departmental memorandum, titled “Mandatory Use of the Cyber Security
Assessment Management (CSAM) Solution” and signed by the Acting
Department CIO, specifies mandatory use and full implementation of the CSAM
solution.

On April 27, 2009, we issued a management advisory, “Deficiencies in System
Inventory Management,” which states that disparities exist between DEAR
inventory and the inventory documented in C&A packages. The Department CIO

1
 Office of the Chief Information Officer Directive No. 2009-002, “Population and Maintenance of the
Departmental Enterprise Architecture Repository,” February 6, 2009.

                                                                                                      5
responded to the management advisory on July 9, 2009, stating corrective action
was taken for the discrepancies. The Department also stated that it had “initiated a
more robust data harmonization effort.” We determined corrective actions were
not focused on the systemic process weakness. We identified similar issues in FY
2010.

Our review identified that inaccurate and incomplete system inventory is
unreliable for identifying accreditation boundaries. We also found that bureau
CIOs are not certifying inventory as policy requires.

System Inventory
DOI has not established clear procedures to consistently manage its IT inventory,
which results in confusion among bureaus as to which system is used for
maintaining inventory.

During our fieldwork, three bureaus stated that CSAM is the most accurate source
of inventory information, but the Department has documented and confirmed that
DEAR is the primary system for maintaining IT inventory. Despite weekly data
feeds from CSAM to DEAR, the two systems are not reflective of each other and
they maintain different data elements.

National Institute of Standards and Technology (NIST) Special Publication 800-
37 defines an accreditation boundary 2 as “all components of an information
system to be accredited by an authorizing official.” DEAR is used to maintain the
Department’s accredited IT system inventory and component parts, but bureaus
maintain the inventory of component parts inconsistently. DEAR does not present
an accurate view of the accreditation boundary and the components, accounting
for 253 3 accredited systems (which include placeholders for pending and
unmatched), while CSAM reflects 270. The component under each accredited
system is not identified in inventory.

The bureaus use a wide, and often confusing, array of terms related to inventory
management. The Department also has no organization-wide agreement for the
definition of “systems,” and bureaus use inconsistent criteria when determining
how all identifiers are used to manage IT inventory.

Sample of Systems reveal Inventory Discrepancies
Inventory entries into DEAR and CSAM are neither complete nor managed
consistently across the Department. Our sample of systems showed:

    •    Inconsistent identification of inventory
            o The Talent Management System was not included in DEAR
                inventory and was only entered in CSAM as a minor application

2
  NIST Special Publication 800-37, Revision 1, states that the term “accreditation boundary” is synonymous
with “information system boundary” and “authorization boundary.”
3
  Based on the “DEAR Certification & Accreditation Boundaries-All C&A Detail” July 13, 2010 report.

                                                                                                             6
              with the Human Resource Management Suite accreditation
              boundary following our request for documentation. This is not the
              National Business Center’s (NBC) normal process. The Talent
              Management System is now the only minor application in NBC’s
              system inventory in CSAM;
           o DOI has consistently failed to include development systems, such
              as the Incident Management Analysis and Reporting System,
              which has been in development since 2004, in inventory. It was
              added into DEAR and CSAM only after we included this system in
              our sample;
           o The Radio Program General Support System is not in DEAR or
              CSAM inventory; and
           o The Project Portfolio System is not in DEAR or CSAM inventory.
   •   Incomplete inventory
           o The National Park Service General Support System (OneGSS) has
              significant minor applications, such as the Concession
              Management System, which is not identified with its accreditation
              boundary in DEAR inventory;
           o The Native American Student Information System does not have
              any components associated with the system in DEAR inventory,
              yet a contractor operates a portion of the system;
           o The National Conservation Training Center Local Area Network does
              not have any minor applications, yet a contractor operates an
              associated property management system; and
           o The Science and Support System-Low (S&SS-Low) was one of the
              systems receiving minor applications from two retired U.S.
              Geological Service (USGS) systems, yet the minor applications are
              not identifiable in DEAR or CSAM inventory and associated with
              S&SS Low.
   •   Sites with no minor applications
           o The Bureau of Land Management (BLM) General Support System
              (GSS) state, district, and local offices are in DEAR and CSAM
              inventory with no minor applications; and
           o NPS OneGSS parks, offices, and centers are in CSAM inventory
              with no minor applications.
   •   Minor applications with no sites
           o Office of Surface Mining (OSM) GSS minor applications are in
              DEAR and CSAM inventory and the security documentation
              agrees; and
           o Office of the Special Trustee (OST) NET minor applications are in
              CSAM inventory, but the security documentation does not agree
              with inventory.

Inaccurate Inventory used for Management Decisions
Management decisions based on incomplete and inaccurate inventory introduce
risks to the IT security program. It is not prudent for an authorizing official to

                                                                                     7
operate a system and assume the risk without a clear understanding and accurate
documentation of all components included in the accreditation boundary.
Furthermore, each year the bureau CIOs are required to certify that their bureau’s
DEAR database — an inventory system that is not consistently managed and
documented — is accurate and complete. In FY 2010, five bureau CIOs
completed DEAR certifications, including U.S. Fish and Wildlife Service (FWS),
Minerals Management Service (MMS), NBC, NPS, and Office of Historical Trust
Accounting (OHTA). We reviewed the completeness of DEAR inventory for the
five bureaus that completed the CIO certification and determined only the MMS
system, is in fact accurate and complete.

Accreditation Boundaries
An accreditation boundary identifies the information resources covered by the
authorization decision. NIST Special Publication 800-37, Revision 1, changes the
term “accreditation boundary” to “authorization boundary” or “information
system boundary.” The authorization boundary is “the set of information
resources allocated to an information system” and “well defined boundaries
establish the scope of protection for organizational information systems.”

Authorization boundaries are poorly defined and documented throughout much of
the Department. Errors and omissions in the DEAR system inventory amplify
boundary discrepancies and vague definitions. DEAR, CSAM, and the
authorization package do not provide an accurate view of system authorization
boundaries. Authorizing officials make decisions to operate systems based on the
boundary described in the authorization package and in DEAR inventory. The
risks associated with the system are not identifiable if boundaries are not
accurately identified.

Contractor Systems
DOI guidance is unclear as to when IT systems or subsystems should be identified
as a contractor system in inventory. NIST Special Publication 800-37, Revision 1,
defines a Federal information system as “an information system used or operated
by an executive agency, by a contractor of an executive agency, or by another
organization on behalf of an executive agency.” Contractor systems are to be
identified in IT inventory separate from agency-owned systems, but DOI
guidance does not specify further criteria for determining if contractor systems or
subsystems should be identified in DEAR.

Bureaus do not consistently identify contractor systems inventory. Our sample of
systems revealed that the identification of contractor systems is inconsistent when
both agency and contractor share in hosting or operations.

Two systems in our sample were identified as contractor systems in inventory.
Those systems include:




                                                                                  8
   •   The Land Records Information System, which is hosted in a DOI
       Government facility. The system security plan does not reference contract
       operators; and
   •   The OHTA Clifton Gunderson Indian Trust Information System, which is
       hosted at a contractor facility and operated by contractors.

Three other systems in our sample are fully or partially hosted or operated by
contractors and are not identified as contractor systems, including:

   •   The DOI Enterprise Services Network, which is hosted in a Government
       facility and primarily operated by contractors, along with some Federal
       personnel;
   •   The Native American Student Information System, which is primarily
       hosted in a Government building in Albuquerque, NM, and partially at a
       contractor facility in Blaine, MN, where contractors provide system
       administration and help desk support; and
   •   The National Conservation Training Center Local Area Network hosted at
       a Government building and includes a Property Management System that
       is managed by a guest services contractor.

Not clearly identifying contractor systems has impacts beyond the IT inventory.
Authorizing officials receive incomplete descriptions of the systems via the C&A
packages, DOI cannot oversee contractors and assure compliance with FISMA
security requirements, and contractor data centers are not accurately identified,
which causes them to be left out for consideration in the Department’s data center
consolidation efforts.

Hardware and Software Inventory
Conditions at DOI present persistent challenges to maintaining a valid asset
inventory. IT acquisitions for hardware and software are not centralized at all
bureaus and controlling what is deployed on the network is difficult. Network
access controls are not implemented throughout most of DOI, which means there
is not an effective way to control what hardware connects to the network. In
addition, the widespread use of local administrator rights enables users to install
unauthorized software.

The “Department’s C&A Guide Using CSAM” states that asset inventory
includes “all hardware and software, including Servers, Workstations, O/S
[operating system], software suites, applications, Web functionality, development
applications, virus protection, Web tools such as Cold Fusion, VPNs [Virtual
Private Network], encryption tool, firmware, modems, hubs, routers, contractor
authorized hardware and software, firewalls, IDS [intrusion detection system],
scan tools, etc.”

The Department has the technical capabilities to identify IT asset inventory, but
bureaus impose limitations on the network, which prevents DOI insight into all

                                                                                      9
bureaus. As a result, asset inventory is not centrally managed and bureaus do not
use consistent methods to identify their asset inventories. Some bureaus use
automated mechanisms to generate asset inventory reports while other bureaus
have a manual process, and one bureau is unable to report.

    Recommendations

      1. Standardize the use of terms within CSAM.

      2. Establish clear guidance for managing IT assets system inventory,
         including: the identification and documentation of minor applications,
         the identification (description, hosted, or operated) and documentation
         of contractor components, a process for adding systems in
         development to inventory, a process for adding test systems into
         inventory, and a process for mapping all components to authorization
         boundaries.

      3. Establish clear guidance for managing hardware and software asset
         inventory.


Certification and Accreditation
Policy
System accreditation is required by the Office of Management and Budget 4 and is
a required FISMA process. Accrediting an information system means a “senior
agency official accepts responsibility for the security of the system and is fully
accountable for any adverse impacts to the agency if a breach of security occurs,”
according to the Department’s June 2009 “C&A Guide Using CSAM Solution”
(Version 2.0). The C&A process documents the system security requirements,
security controls, and authorization to operate the system.

In February 2010, NIST issued revised guidance 5 that transforms the traditional
C&A process into a six-step Risk Management Framework, now known as the
“security authorization process.” In addition, August 2009 guidance 6 modified the
required minimum IT security controls for systems. DOI has yet to update its
C&A policy to correlate with NIST’s revised guidance.

The C&A policies detailed in the DOI IT Security Policy Handbook are based on
the traditional C&A processes, now outdated by NIST’s February 2010 and
August 2009 guidance. The Department also has multiple procedural documents
for implementing the C&A process, including the draft “DOI Certification and

4
  Circular A-130, Appendix III.
5
  NIST Special Publication 800-37, Revision 1, “Guide for Applying the Risk Management Framework to
Federal Information Systems.”
6
  NIST Special Publication 800-53, Revision 3, “Recommended Security Controls for Federal Information
Systems and Organizations.”

                                                                                                        10
Accreditation Guide” (February 4, 2008) and the “DOI C&A Guide using CSAM
Solution.”

We found that bureaus were aware of the various policy and guidance documents,
yet do not have a definitive understanding of which guidance to follow.
Confusion over the policy and procedural guidance has impacted the
implementation of DOI’s C&A program.

FISMA Sample of Systems
The weaknesses we identified in our sample are indicative of a flawed
Departmental authorization process. Such issues adversely affect the authorizing
official’s capability to manage information security system risks. Our review
determined most of the C&A packages would not give an authorizing official a
comprehensive and valid understanding of the system security posture and could
not be relied on to support their decision to authorize the operation of the system.

We reviewed a representative sample of 21 IT systems to assess the Department’s
C&A process (See Appendix 1: Scope and Methodology for the complete list of
systems). Our review revealed noncompliance with DOI procedures,
documentation deficiencies, invalid accreditations, complex systems not
identifying and describing component parts, untimely updates of system security
plans, and self assessment of controls and contingency plans.

Our review was based on data provided by bureaus and artifacts from CSAM.
CSAM is the official repository for C&A packages, POAM, and Internal Control
Reviews for each accredited system in inventory.

CSAM experienced a system failure and backup glitch that had a major impact on
the completeness and accuracy of the data in CSAM. The Department CIO stated
on July 2, 2010, “Unfortunately, analysis has revealed a breakdown in database
backup processes and procedures resulting in loss of data entered into CSAM
since approximately February 19, 2010.” Since our FY 2010 FIMSA Evaluation
was underway during that time, some of our findings may have been impacted.
Commonalities we identified in the sample of systems included weaknesses in
documentation, system accreditation, control reviews, and contingency plan tests.

Documentation
We found that C&A documentation is done inconsistently and lacks quality. We
assessed the C&A packages for our systems sample and determined an overall
quality rating of “good,” “satisfactory,” or “poor.” The ratings were based on
sufficiency and completeness of detail within the package, compliance with NIST
and Departmental guidance, and document organization. Our primary focus was
to see if the package provided an authorizing official with an accurate
understanding of the system security posture to make valid decisions to operate
the system. We found security documentation that showed 62 percent of the 21



                                                                                  11
systems were in the “poor” category, 24 percent were “satisfactory,” and only 14
percent were “good.”

Some C&A packages were generated using the CSAM system capabilities, while
others were produced independently. The packages generated using CSAM
generally lacked tailoring and system-specific detail. CSAM is capable of
generating a complete authorization package, but the end result is only as good as
the original data entered. We found that portions of the system security plans were
missing information and only displayed templates or placeholders. We also
identified system security plans with broken hyperlinks, generic responses,
limited or no documented update history, and blank signature pages for system
security plan approval. Packages produced independently of CSAM were found to
be more complete and the documents were reviewed for quality.

System Accreditation
During our evaluation of the FISMA sample of systems, we indentified varying
issues with system accreditation. We noticed several weaknesses with the
documentation and the process. Problems include:

   •   Not all systems are accredited;
   •   The accreditation process for systems in development is unclear;
   •   Component parts are not fully identified within a larger accreditation
       boundary; and
   •   Not all accreditations are completed on time. Furthermore, minimum
       controls have not been implemented following NIST revisions in August
       2009.

Accreditation Problems and Weaknesses
First, not all Department systems are accredited. We identified three systems
(Radio, Project Portfolio Management, and S&SS-Low) that are deployed in the
DOI environment to varying extents and determined that they are neither covered
under valid security authorizations, nor fully identifiable in the DEAR IT
inventory.

The Radio Systems Program accreditation has not been completed to date. Radio
systems are used in various missions by the Bureau of Indian Affairs (BIA),
BLM, FWS, NPS, Bureau of Reclamation (USBR), and USGS. Since the DOI
Radio System Program was one of the systems in our sample, we requested
security documentation on December 17, 2009, and were informed the
consolidated program or bureaus’ instances do not have supporting C&A
packages. The Office of Management and Budget classifies radio systems as a
General Support System, and they must adhere to FISMA requirements, including
system accreditation. DOI established the Radio Site Consolidation project charter
on June 18, 2010, to analyze alternatives and the feasibility of restructuring the
program, but accreditation has not been completed.


                                                                                12
Project Portfolio Management does not have a valid accreditation. The system is
used by the DOI investment review board and is not included in DEAR inventory
or CSAM. We did not receive a response from the Office of the Secretary (OS)
regarding our request for system documentation.

The Science and Support System-Low (S&SS-Low) accreditation has not been
completed. During our FY 2009 FISMA evaluation, we expressed concerns about
the accreditations of two USGS systems: the Office Automation General and
Office Automation Specialized. The Associate Director for Geospatial
Information and CIO stated on June 12, 2009, that “in accordance with the
boundary change certificate memo, the subject systems will have all Assets or
constituent subsystem-level components realigned into new systems, therefore
decommissioning the old systems is required.” Our FY 2010 sample included two
systems (S&SS-Low and S&SS-Moderate) on the receiving end of this USGS
component realignment. We are unable to reconcile the asset realignment and
gain assurance that all component systems are properly accredited for this
evaluation.

Second, the Department’s guidance regarding the accreditation process for
systems in development is unclear. The Department’s C&A Guide elaborates on
the Clinger-Cohen Act, which “directs the heads of agencies to ‘incorporate
information security principles and practices throughout the lifecycles of the
agency’s information systems,’” by stating, “Therefore, any automated
information resource under development, and at any stage during operation and
maintenance through disposal, must be included in the security requirements of
the system.”

We included one such system in our sample to gain an understanding of how the
authorization process is implemented during system development. We found that
the system, Incident Management and Analysis and Reporting System (IMARS),
which is being created to provide a Department-wide information collection,
analysis, and reporting system for law enforcement and non-law enforcement,
lacks proper documentation and does not have a timely accreditation process
underway. 7 The system has been in various stages of development since 2004 but
the security documentation process has not moved forward. IMARS is on the
Office of Management and Budget’s FY 2010 high risk information technology
projects list. The necessary security considerations have not been documented.

When we requested the C&A package for the IMARS system, we received a
memorandum from the authorizing official with a brief status update, which did
not detail the NIST defined tasks that should be underway. Also, the


7
  NIST Special Publication 800-37, Revision 1 (page 5), describes the process for managing information
systems-related risks, including, “integrating information security requirements into system development life
cycle.” Many of the tasks associated with the system’s authorization process are detailed in NIST 800-37 and
begin during system development.


                                                                                                          13
Department’s official repository for C&A package documentation, CSAM, does
not contain any security-related documentation for the system.

Third, we found that component parts are not fully and consistently identified
within a larger accreditation boundary. When we looked at component parts, or
minor applications within complex systems, to determine if they are adequately
identified in the accreditation package, we found that the level of detail varied by
system size and by bureau.

As an example, inconsistencies were identified between bureaus in how they
reflect components in CSAM. The Office of the Secretary successfully and
effectively identified the component part (the Talent Management System) within
the Human Resource Management Suite major application package. We
determined that NPS did not adequately describe the two applications we
reviewed. The Yosemite Wilderness Permit System and the Concession
Management System were neither described in detail nor clearly identified in the
related GSS accreditation package.

Also, despite guidance from the CSAM C&A Guide, the Concession Management
System minor application is not fully identifiable in DEAR and associated with
the NPS OneGSS. Both NPS minor applications are not fully described in the
system security plan, security categorization is not documented, and the security
controls are not identified for each subsystem component.

Finally, we found reaccreditations that were not completed in a timely manner.
NIST states that the maximum authorization period for an information system is 3
years. Four sample systems had accreditations that expired during our evaluation.
The reaccreditations were not completed to correspond with the accreditation
expiration date. In all instances, the reaccreditations were between 60 and 90 days
overdue, as of the date of this report. One date reflected in CSAM showed that the
accreditation expired on June 11, 2011, but the signed accreditation memo shows
that the accreditation expired on August 7, 2010.

Annual Self Assessments and NIST Revisions
FISMA § 3544(b)(5), requires annual assessments of the effectiveness of
information security policies, procedures, practices, and security controls for all
systems. The CIO issued a memorandum 8 with detailed instructions and a
methodology for completing annual self-assessments for systems. It included a
requirement that CSAM should be used to document all system Internal Control
Review assessments for FY 2010. We found that only 67 percent of the bureaus
are using CSAM to assess the system IT security controls.

NIST Special Publication 800-53, Revision 3 guidance has not been addressed in
DOI guidance. All controls in that guidance have not been implemented. Most
C&A packages are based on the second revision (NIST Special Publication 800-
8
    “Internal Control Review Guidance for FY2010,” February 24, 2010.

                                                                                  14
53, Revision 2), instead of the current version, which was released in August
2009. These updates were to be fully implemented by August 2010, but CSAM
has not yet been updated. The FY 2010 annual assessments were completed using
Revision 2, but the additional controls have not been assessed, and we have no
assurance all minimum baseline controls have been implemented.

Also, we identified multiple process weaknesses during our review of self
assessments. We did not find a historical record of assessments consistently
posted in CSAM, so we were unable to ascertain if all systems had undergone an
annual assessment within 12 months of their FY 2009 self assessment. We also
found that large and complex systems do not have a methodology to effectively
consolidate control assessments when they are completed at multiple sites under
the accreditation boundary. Many security controls did not contain any
implementation description.

Contingency Plan Testing
We found inadequate contingency plan testing within the Department. Our sample
revealed that 67 percent of the system contingency plan tests were either not
completed on time or were insufficiently documented. The DOI IT Security
Policy Handbook states that bureaus must test the contingency plan for
information systems “at least annually using bureau or office developed-tests and
exercises to determine the plan’s effectiveness and the organization’s readiness to
execute the plan.” We found multiple systems had test date data entered in
CSAM, but no artifacts were provided to support the entry. Without
comprehensive and well-documented contingency plan tests, DOI is unable to
have confidence in their plans.

DOI Compliance Reviews
We found an ineffective compliance review process within the Department. The
results from the reviews are often inflated and they are of little benefit to the
bureaus.

The Department’s Cyber Security Division conducts annual reviews at each
bureau as part of the Department’s FISMA oversight and compliance efforts.
There is overlap between the OIG FISMA Evaluation and Cyber Security
Division’s compliance reviews; however, the OIG and Cyber Security Division
results often disagree.

Our evaluation noted numerous errors and inconsistencies in the bureaus’
authorization packages, yet the Cyber Security Division’s compliance reviews
resulted in perfect, or near perfect, scores. During our fieldwork, bureaus
expressed confusion over the differences in our findings and Cyber Security
Division’s lack thereof. Bureaus further stated that the Cyber Security Division
gave them an opportunity to correct identified deficiencies and have their score
modified.



                                                                                   15
    Recommendations

      4. Update DOI’s security authorization policy and guidance to
         incorporate the latest NIST guidance (NIST 800-37, Revision 1, and
         NIST 800-53, Revision 3).

      5. Merge the multiple DOI security authorization procedural documents
         into a single document. The guidance should clarify when the
         authorization process begins in the life cycle, the role of the senior risk
         executive, and clarify how information system boundaries are to be
         documented.


Security Configuration Management
Policy
Security configuration management is fundamental to the overall success of an
information security program. FISMA emphasizes the need for organizations to
implement an organization-wide information security program. A March 22, 2007
Office of Management and Budget memorandum directed agencies to comply
with Federal Desktop Core Configuration (FDCC) standards, the security
configuration standards that were developed by NIST, the Department of Defense,
and the Department of Homeland Security, by February 1, 2008. One year after
OMB’s memorandum, the Department’s Office of the Chief Information Officer
issued policy in March 2008 requiring all offices to be in full compliance with
FDCC standards by September 30, 2008.

Federal Desktop Core Configuration
FDCC standardizes desktop and laptop configurations and is intended to provide a
secure, enterprise-wide managed environment. Departmental policies require
compliance with FDCC and also that deviations are documented and approved.

We performed technical testing and assessed FDCC compliance by measuring
specific standards and configurations settings on the following benchmarks: 9

     •   Windows XP Professional;
     •   Internet Explorer Version 7; and
     •   Windows XP Firewall.

We found that the Department was 80 percent compliant 10 with FDCC
benchmarks in 2010, compared to 68 percent compliant in 2009.We also found
inconsistencies, however, such as disparate Web browsers, and unapproved

9
  We assessed compliance with FDCC where bureaus had these three benchmarks available. Not all bureaus
employed these benchmarks, so we were unable to test disparate software.
10
   OIG Secure Content Automation Protocol (SCAP) testing did not take into account approved or
unapproved deviations.

                                                                                                    16
FDCC deviations. We reviewed the concept of least privilege and its
implementation and impact on security configuration management. The
inconsistent configurations present a challenge in securing DOI workstations and
hinder the Department’s ability to monitor FDCC compliance.

We conducted technical testing in June 2010 and found FDCC compliance varies
by bureau as demonstrated in Figure 1. We tested all bureaus with the exception
of OHA, as technical testing capabilities were not available to test their operating
systems. We found differences in FDCC compliance ranging from 58 to 95
percent throughout the bureaus.

     Overall Percentage of Compliance with all FDCC Benchmarks

  100
   90
   80
   70
   60
   50
   40
   30
   20
   10
    0




Figure 1. We found differences in FDCC compliance ranging from 58 to 95 percent
throughout the bureaus.

Inconsistencies
We identified inconsistencies and unapproved deviations throughout much of the
Department during our data analysis. These inconsistencies make monitoring the
Department’s overall FDCC compliance challenging. We found that:

    •   BIA, USBR, MMS, and OSM were unable to validate their own
        compliance with FDCC;
    •   BLM, FWS, NPS, OHTA, OST, and SOL did not have approved
        deviations from mandatory FDCC settings;
    •   MMS, NBC, NPS, Office of the Secretary (OS), and OST do not use the
        inherent Windows XP firewall, which puts them at risk for not meeting
        FDCC security requirements;
    •   USBR, FWS, and USGS do not have firewalls consistently turned on like
        other bureaus;


                                                                                  17
    •    One typical Office of the Secretary user with elevated privileges managed
         his own FDCC compliance settings instead of receiving the Department’s
         policy through automated mechanisms; and
    •    One Office of the Secretary user did not have a firewall turned on at any
         time.

Disparate Web Browsers
We found multiple versions of Web browsers throughout the agency. FDCC
mandates that each browser be configured with equivalent FDCC settings, yet we
found BIA, BLM, USBR, FWS, MMS, NBC, OS, OSM, and USGS did not
configure their additional browsers to be secure. The following table demonstrates
the Department’s disparate Web browsers:

                      Disparate Web Browsers by Bureau

   Bureau        No. of        Browsers and Versions Identified
                 Browsers
                 Reported
   BIA                5        Internet Explorer 7 and Internet Explorer 8; Multiple versions of
                               Mozilla Firefox; Multiple versions of Safari; Netscape Navigator;
                               and Google Chrome
   USBR               5        Internet Explorer 6, Internet Explorer 7, and Internet Explorer 8;
                               Multiple versions of Mozilla Firefox; Multiple versions of Safari;
                               Google Chrome versions 1-5; and Opera V9 and V10
   BLM                2        Internet Explorer 7 and Mozilla Firefox
   FWS                5        Internet Explorer 7 (FWS did not identify the other 4 browsers)
   MMS                2        Internet Explorer and multiple versions of Mozilla Firefox
   NBC                2        Internet Explorer and Mozilla Firefox
   NPS                5        Internet Explorer 7 and Internet Explorer 8; Multiple versions of
                               Mozilla Firefox; Netscape Navigator; Google Chrome; and Opera
   OHA                2        Internet Explorer 7 and Internet Explorer 8
   OHTA               0        0
   OS                 2        Internet Explorer and Mozilla Firefox
   OSM                2        Internet Explorer and Mozilla Firefox
   OST                0        0
   SOL                0        0
   USGS               5        Internet Explorer, Mozilla Firefox, Safari, Google Chrome, and
                               Opera

Figure 2. These are the browsers that each of the bureaus reported in the OIG data call. In
some cases, the number of browsers reported differs from the number actually identified.

Least Privilege and Elevated Rights
FDCC standards prohibit elevated privileges and require least privilege for users,
a concept in which users are assigned the absolute minimum privilege necessary
to perform required tasks (e.g., “local administrator” or “power user” settings).
Assigning elevated privileges, such as “local administrator” or “power user,”
enable users to circumvent standard configuration controls. According to NIST,
any privilege that is not a default user right is an “escalated privilege” and is not
in compliance with FDCC.


                                                                                                    18
We found six bureaus that elevated “typical” or “normal” user accounts to “local
administrator” or “power users.” Moreover, these users are constantly logged in
with escalated rights and privileges, thus inviting the opportunity for malicious
software (malware) that can damage Department files and settings.

             Percentage of Users with Local Administrative Privileges

              70
              60
              50
              40
              30
              20
              10
               0
                       USBR         FWS          MMS           NPS         OHTA          OSM


Figure 3. Shows the disparity of percentages of users with elevated privileges, such as “local
administrator” or “power user,” among bureaus.

Network Access Control
The Department and bureaus have Plan of Action and Milestones 11 (POAM) with
an estimated cost of $3 billion to mitigate the weaknesses associated with network
access control. Network access control, required per NIST Special Publication
800-53 (IA-3) and Departmental policy, prevents unauthorized devices from
connecting to the network by assuring a device is authenticated.

During fieldwork at three bureaus, we determined that network access control was
not deployed to prevent unauthorized computers from connecting to the network.
We connected an unauthorized computer to the network and performed scanning
that was likely to be detected, and little to none of the activity was identified or
reported. We were able to connect to internal Web sites containing sensitive
information from the unauthorized computer without being authenticated as a
DOI or bureau user.

We also found weak physical security controls. 12 We successfully gained entry
and access to offices without any type of identification. Once we were inside
bureau facilities, physical access was virtually unrestricted, which enabled logical
access to the network. Weak physical security controls coupled with the lack of


11
     POAM ID number 13870.
12
     The Incident Response section contains additional information on weak physical security controls.

                                                                                                         19
network access control implementation could lead to the loss or compromise of
sensitive information.

Security Technical Implementation Guides
Security technical implementation guides (STIGs) are security configuration
checklists or instructions for configuring an application or product to a particular
operational environment (e.g., a computer or network devices). Departmental
policy requires that STIGs be used as part of the overall security baseline.

The Department’s security configuration policy does not address all operating
systems and applications in use across the agency. We determined DOI has
additional applications for which they do not have applicable STIGs. In addition,
we found users with administrator rights who had installed peer-to-peer
applications, games, adult content screensavers, and other unauthorized software
that went undetected by the Department despite DOI IT Security policy
prohibiting it. The Department cannot create a STIG for unidentified software.

 Recommendations

      6. Implement least privilege principal and control use of elevated user
         rights.

      7. Standardize Web browsers and firewalls on workstations Interior-
         wide.

      8. Document and approve all deviations from FDCC compliance.

      9. Implement network access controls.


Incident Response and Reporting
Policy
FISMA § 3544(a)(7) requires that agencies establish incident response
capabilities and have formal procedures to detect, report, and respond to security
incidents. Agencies are also required to notify and coordinate their incident
response activities with the Department of Homeland Security’s U.S. Computer
Emergency Readiness Team (US-CERT) and notify and consult with law
enforcement agencies, including their respective OIG when necessary based on
the guidance. Office of Management and Budget’s July 12, 2006 memorandum
M-06-09 13 also requires that agencies report all incidents involving personally
identifiable information (PII) to US-CERT within 1 hour of discovering the
incident.


13
  Memorandum M-06-09, “Reporting Incidents Involving Personally Identifiable Information and
Incorporating the Cost for Security in Agency Information Technology Investments.”

                                                                                               20
NIST Special Publication 800-61 14 provides guidance for handling IT security
incidents. The Interior Computer Security Incident Response Handbook 15 also
outlines response and reporting procedures for the agency in sufficient detail, and
is consistent with NIST and the DOI IT Security Policy Handbook, which
requires bureaus to have an incident response capability.

The Interior Computer Security Incident Response Handbook states that incident
response coverage is from 7 a.m. to 7 p.m., Eastern Standard Time. Security
Operations personnel act as a point of contact for reporting incidents at the
Department and manage the DOI Computer Incident Response Center (CIRC), a
centralized database or ticketing system intended to correlate and track incidents
at all bureaus.

Procedure Implementation is Lacking
We found that the incident response capability within the Department is
fragmented and inconsistent. We identified inconsistencies in how DOI reports
incidents to US-CERT. We also identified inconsistencies with bureaus reporting
to DOI using the DOI CIRC. We found that bureaus have their own incident-
reporting and response policies and procedures, which makes it difficult for the
agency to correlate key incidents in a central location. We sampled three bureaus
and found that two of them were not aware of the Interior Computer Incident
Response Handbook issued in January 2010.

The multiple layers to report an incident to the Department is time intensive and
not consistently followed. The lack of a bureau-wide, consolidated approach,
coupled with duplicative policy and procedures, is hindering the DOI Incident
Response program as a whole.

Absence of Preventative Measures and Breakdown of Procedures
We found that key preventative and incident detection measures were absent and
some procedures were disregarded.

Our testing at three bureaus found file and object access not enabled. Having file
and object access enabled would allow the bureaus to record and identify OIG or
unauthorized personnel’s access or attempted access to sensitive information. We
found that permissions set to protect sensitive information were generally
restrictive throughout the three bureaus but not in all cases. We found that as a
domain administrator or local administrator of a server, we were able to view,
modify, and copy sensitive information without being detected.
We also found weak physical security controls. At a National Park Service
headquarters building, we were able to piggyback into the secure facility with an
armed Park Ranger through a door for employees only. Once inside, physical
access to the bureau facilities was virtually unrestricted, allowing us to gain
logical access to the network and collect hardcopy personally identifiable

14
     Revision 1, “Computer Security Incident Handling Guide,” (March 2008).
15
     Version 2, issued on January 28, 2010.

                                                                                 21
information (PII) and sensitive information. Weak physical security controls led
to the loss and compromise of hardcopy sensitive information that was never
reported to DOI CIRC. We were 100 percent successful in gaining access to three
bureau networks with an unauthorized computer. In some cases, we were able to
find and access sensitive information with the unauthorized computer.

Logging in with credentials obtained by successful social engineering attacks
could have been prevented if two-factor authentication, the use of two
independent authentication methods for authorizing secure access to a system,
were implemented. We were 100 percent successful at all three bureaus in
obtaining usernames or passwords to log into computers. Two-factor
authentication was not enforced on these accounts, as we logged in without a
Personal Identity Verification card.

We reviewed incidents within the DOI-CIRC from April 21 through September
14, 2010 and found that only three of 245 PII tickets were reported to US-CERT
within the required 1-hour timeframe. Of the 245 PII incidents we reviewed
within DOI-CIRC, we found that bureaus took an average of 54 days to report PII
incidents to the Department, which delayed the Department’s required report to
US-CERT. Our testing even created an incident in Alaska. We found that our
incident was reported to a trained IT security manager within the state, but the IT
security manager never reported it to the bureau level. These stovepipes do not
allow the centralized management and correlation of incidents to take place in a
timely enough manner so that Departmental procedures can be followed.

Incidents
Our testing of incident response at three bureaus demonstrates the inconsistency
with which they identify and report incidents. When we created incidents during
our testing, we found reporting in one bureau was timely and accurate but
untimely and inaccurate in another. We found the following unreported incidents:

   •   Unauthorized access to facilities;
   •   Copy and removal of PII from servers;
   •   Unauthorized access to documents;
   •   Removal of hardcopy PII-sensitive documents;
   •   Social engineering attacks;
   •   Unauthorized scans of networks;
   •   Unauthorized computers connected to networks; and
   •   Passwords cracked on files with weak encryption standards.

We also obtained numerous documents and property from NPS, such as:

   •   Social Security numbers in hardcopy documents, workstations, and
       servers;
   •   Numerous users’ personal listings of username and passwords in various
       formats (e.g., MS Excel, MS Word and text files) for GovTrip,

                                                                                 22
       QuickTime, Interior Department Electronic Acquisition System (IDEAS),
       and the Federal Financial System;
   •   Numerous credit card numbers and personal receipts attached;
   •   Social Security numbers posted to internal Web sites of external vendors
       or providers;
   •   Adjudication of security clearances;
   •   385 IBM Lotus Notes IDs coupled with a password list, which allow
       unauthorized access to users’ email accounts;
   •   Sensitive information from unlocked shredder bins; and
   •   An unlocked workstation with a username and password on the screen.

Of these documents and findings, we found neither that the incidents were
reported nor any indication that the bureaus knew these documents had been
compromised. Our review demonstrated that incidents were not identified and
preventative, and detection measures are not fully in place at the Department.

 Recommendations

    10. Implement incident response policies and procedures consistently
        throughout bureaus and offices.

    11. Require bureaus and offices to use the Department’s DOI-CIRC
        database for incident response and reporting versus their own
        implementation.


Security Training
Policy
FISMA has multiple security training requirements designed to inform personnel
of information security risks and responsibilities. DOI’s annual security training,
Federal Information Systems Security Awareness (FISSA), is required by all
users. Role-Based Information Technology Security Training is required by those
with significant IT responsibilities. All users must annually acknowledge the
Rules of Behavior, which detail users’ expected behavior with regard to
information and information system use.

DOI’s FISSA training consolidates Privacy and Records Management and the
annual acknowledgement of the Rules of Behavior. According to the DOI IT
Security Policy Handbook, FISSA “is required by all information system users
before authorizing access to information systems and annually thereafter.”
Training requirements reiterated in a December 22, 2009 memorandum from the
DOI CIO “require all users of Department of the Interior (DOI) information
systems to receive annual information security awareness, privacy, and records
management training, as well as acknowledging system Rules of Behavior” by
July 31, 2010. An April 21, 2010 Office of Management and Budget

                                                                                 23
Memorandum (M-10-15) details the FY 2010 FISMA reporting requirements and
extends the FISSA training requirement to “each employee,” not just system
users.

The annual requirement for users to complete the Rules of Behavior agreement
was established in the CIO’s December 22, 2009 memorandum. The DOI IT
Security Policy Handbook also states that bureaus shall “ensure receipt of signed
acknowledgement from users indicating that they have read, understand, and
agree to abide by the rules of behavior, before authorizing access to the
information system and its resident information.” It further states that bureaus
“may leverage electronic signatures for use in acknowledging rules of behavior.”

FISMA § 3544(a)3(d) requires role-based IT security training. It specifically
requires that the Department’s CIO train personnel with significant
responsibilities for information security. Also, the DOI IT Security Policy
Handbook states that role-based information technology security training
“programs are implemented in accordance with the DOI Role-Based IT Security
Training Guide, and NIST Special Publication 800-16, ‘Information Technology
Security Training Requirements: A Role- and Performance-Based Model’ (March
20, 2009).” On December 23, 2009, the Department CIO released Office of CIO
Directive 2010-002, which detailed role-based information technology security
training requirements and released DOI’s updated Role-Based Security Training
Standard Version 2.5 (November 3, 2009). The directive stated that role-based
information technology security training requirements were to be completed no
later than July 31, 2010.

Results
FISSA
In general, procedures surrounding FISSA training were well implemented during
FY 2010. There were challenges associated with the deployment of a new training
system, but the guidance remained consistent and well disseminated throughout
DOI. July 31, 2010 reports from the Departmental training system reflect that
97.7 percent of Federal employees and other personnel 16 completed the training.
The training course covered DOI security policies and procedures and was
determined to be comprehensive.

Despite DOI efforts to provide annual training, users continue to introduce risk to
the environment. During unannounced fieldwork at a bureau, we observed a
contract employee workstation which was left unlocked, unattended, and logged-
in to the bureau email. In addition, the email on the screen contained a user name
and password to a bureau File Transfer Protocol (FTP) site. Our review of the
FISSA completion records revealed that this contractor had been enrolled and
included in the baseline but had not completed the FISSA training.


16
  Other personnel include all types of non-full time equivalents such as contractors, volunteers, and seasonal
employees.

                                                                                                           24
Rules of Behavior
Rules of Behavior for each bureau were included as part of FISSA training. Prior
to completing the training, users select the rules of behavior appropriate to their
specific bureau. The user is asked to read the rules and select “I agree” to progress
and finish the course. During FISMA fieldwork, we confirmed that none of the
three bureaus retained signed, hard copy versions of the Rules of Behavior
acknowledgement. The DOI IT Security Policy Handbook allows electronic
signatures to be associated with the Rules of Behavior acknowledgement. The
bureaus that we sampled were unsure if the submission in DOI Learn equates to
an electronic signature.

Each bureau has its own Rules of Behavior. We determined that most Rules of
Behavior documents do not incorporate specific information regarding remote
access or teleworking responsibilities.

Role-Based Security Training
Role-Based Security Training is completed by personnel with significant
information security responsibilities. The Department’s Role-Based Security
Training Standard 17 clearly defines training requirements for each group, bureau
responsibilities for tracking completed training, and courses available in DOI
Learn. As of July 31, 2010, 54 percent of all personnel required to take role-based
security training had completed the required training. The Department extended
its reporting date for accepting training completions, and as of September 15,
2010, it reported 96.2 percent completion.

Implementation Challenges
Accurately identifying personnel required to complete FISSA and Role-Based
Security training is a challenge for DOI. The Department does not have a central
authoritative identity management system for identifying all personnel who have
various training requirements. Establishing baselines is a manual process, which
provides a point-in-time number based on data from a number of available
reports, including the active directory listing, historical training records, payroll,
and human resources reports.

Role-based security training completions are tracked in DOI Learn after users
“self certify” that they are finished. Supporting artifacts cannot be uploaded into
the system as evidence of self certifications. Role-based security training in the
Department can only be verified manually, using an extensive data call.

Significant IT Security Duties
Personnel with a range of qualifications and position descriptions perform DOI IT
security duties. On December 17, 2009, we issued a data call of all Department
personnel with “significant IT security responsibility” to determine the
demographics of this group. The list contained employees and non-employees for
all bureaus and reflected various portions of their time devoted to IT security
17
     Version 2.5, section 1.5, dated November 3, 2009.

                                                                                     25
duties. The personnel ranged in General Schedule (GS) grade levels and GS-
series. The information was manually compiled by each bureau because an
automated method does not exist.

Our analysis evaluated whether IT security is performed by a sufficient number of
personnel with an appropriate grade structure and expertise. The results do not
reveal a great deal of consistency regarding personnel and those variables impact
how IT security is conducted in DOI.

The Department’s Role-Based Security Training Standard 18 defines the type of
personnel considered as having “significant information security responsibility.”
In FY 2010, the Department reported 4,067 personnel with “significant IT
security responsibility.” Our analysis revealed that:

       •    536 more personnel were involved in IT security in FY 2010 than FY
            2009;
       •    77 percent of the personnel were fulltime Federal employees;
       •    23 percent of the personnel were contractors;
       •    The largest gain in personnel was at USGS, which added 142 employees;
       •    The next largest gain in personnel was at FWS, which added 128
            employees;
       •    The biggest loss in personnel was at USBR, which lost 13 fulltime
            employees;
       •    The number of personnel devoting 100 percent of their time to IT security
            dropped by 36 percent;
       •    50 percent of the new 354 fulltime employees are GS-12 or above;
       •    IT Security personnel increased by 22 percent from FY 2008; and
       •    202 fewer people devote at least 60 percent or more of their time to IT
            security compared to FY 2009.

Figures 4 to 7 show data from our comparative analysis between FYs 2008, 2009,
and 2010.




18
     Version 2.5, Section 1.5, dated November 3, 2009.

                                                                                  26
           Personnel Reported (total) Year-by-Year Comparison

               FY 2008           FY 2009                          FY 2010
                                                  Total                            Total
 Bureau     FTE      CNTR     FTE      CNTR                    FTE       CNTR
                                                  Difference                       Difference
BIA          127      63      148           46        +4       140           63        +9
BLM          601      123     559           94        -71      572           81         0
BOR          328      16      348           62        +66      335           62        -13
FWS          284      63      273           63         -9      403           63       +128
MMS          192      174     210           109       -47      221           174       +76
NBC          292      141     340           232      +139      389           287      +104
NPS          385      10      408           60        +73      440           57        +29
OHA           5        5       6             0         -4       6             0         0
OHTA          5       21       5            21          -       4            18         -4
OS           56       12      63            18        +13      73            45        +37
OSM          37       10      39             8          -      58            10        +21
OST          17        4      21             0          -      27             0        +6
SOL           2        1       6             2        +5        6             3        +1
USGS         327      42      340           48        +19      448           82       +142
Total       2658      685     2768          763                3122          945
Annual
combined           3343              3531           +188              4067           +536
total

Figure 4. Presents the number of fulltime Federal employees and contractor personnel in a
year-to-year comparison and how they are allocated to various DOI bureaus.




                                                                                            27
       Employees Reported (by Grade) Year-by-Year Comparison
                                                                 Difference      Difference
                Grade    FY2008      FY2009       FY2010         (FY08-09)       (FY09-10)
               SP-5         1           1            1                 -               -
               WG-11        2           2            1                 -              -1
               GS-2         1           1            0                 -              -1
               GS-3         -           2            4               +2              +2
               GS-4         4           7           10               +3              +3
               GS-5        24          33           37               +9              +4
               GS-6        24          18           24                -6             +6
               GS-7        95          94           137               -1             +43
               GS-8        15          12           15                -3             +3
               GS-9        218         228          278              +10             +50
               GS-10        5           4            2                -1              -2
               GS-11       513         522          589              +9              +67
               GS-12       669         665          743               -4             +78
               GS/GM-
                           515            562          645           +47            +83
               13
               GS/GM-
                           337            366          374           +29            +8
               14
               GS/GM-
                           154            171          176           +17            +5
               15
               SL             5           4            5              -1            +1
               SES            74          76           81             +2            +5


                Total      2656       2768            3122          +112           +354


Figure 5. Employees reported by grade, in a year-to-year comparison from FY 2008 to 2010.



           Percent of Time Personnel Devoted to IT Security Duties

                 FY 2008             FY 2009                                  FY 2010
                                                                Total                            Total
 Percentage    FTE      CNTR       FTE          CNTR                       FTE       CNTR
                                                             difference                       difference
    100        506      83         524          153              +88       380        117        -180
    ≥ 90       531      91         551          160              +89       406        135        -170
    ≥ 80       549      97         579          165              +98       432        147        -165
    ≥ 70       626      103        654          182             +107       463        176        -197
    ≥ 60       652      116        686          190             +108       492        182        -202
    ≥ 50       783      134        809          214             +106       625        245        -153
    ≥ 40       845      151        858          221              +83       682        251        -146
    ≥ 30       1027     193        1008         247              +35       838        285        -132
    ≥ 20       1467     329        1510         421             +135       1547       572        +188
    ≥10        2058     517        2208         599             +232       2419       791        +403
     ≤9        600      168        560          164              -44       704        153        +133

Figure 6. The time personnel devote to IT security has dropped dramatically since 2009.




                                                                                                       28
    Employees with Significant Information Security Responsibilities

                   Job Title             Series                      Explanation
 Clerk (STEP)                             0303     IT Clerk (STEP)
 Wild Horse and Burro Specialist          0401     System Manager, Wild Horse and Burro System
 Natural Resource Specialist              0401     Active Directory Elevated Privileges
 Hydrologist                              1315     Security Point of Contact
 Geologist                                1350     IT Security Administration
 Supervisory Geologist                    1350     IT Security Manager
 Fishery Biologist                        0482     Security Point of Contact
 Geophysicist                             1313     IT Security Administration
 Physical Scientist                       1301     IT Project Manager
 Bankcard Coordinator                     0303     System Administrator
 Realty Specialist                        1170     Active Directory Elevated Privileges
 Park Ranger                              0025     OU Admin, Information Security Management
 Electronic Mechanic                      2604     Local Area Network Administrator
 Supervisory Budget Officer               0340     Budget Tracking
 Pipeline Coordinator Officer             0301     System Owner

Figure 7. A considerable array of personnel who perform information security duties have
job titles that do not seem to support the necessary qualifications for IT security functions.

 Recommendations

     12. Evaluate the current Rules of Behavior submission process to ensure it
         satisfies electronic signature requirements.

     13. Implement a solution that assists in establishing accurate employee and
         contractor baseline counts, such as a central authoritative identity
         management system.

     14. Review the qualifications of personnel performing IT security duties in
         the Department and reassign those duties accordingly.


Plan of Action and Milestones
Policy
The Office of Management and Budget has required quarterly system Plans of
Action and Milestones (POAM) since October 31, 2001. The Plan of Action and
Milestones program has taken steps forward since then but it certainly has not
matured into an effective and reliable program for managing all IT weaknesses in
the Department.

The DOI IT Security Policy Handbook requires Bureaus and Offices to develop
and continuously update Plan of Action and Milestones for all systems. POAMs
should document all planned, implemented, and evaluated remedial actions to
correct system deficiencies identified during the assessment of the system security
controls. The process is to be completed in accordance with the DOI POAM
Process Standard. The Department CIO expanded on the policy on September 23,

                                                                                             29
2008, when he mandated the use of CSAM as the central database for managing
POAMs.

Office of Chief Information Officer Directive 2010-006 reiterated this policy on
May 18, 2010, and released an updated version on May 10, 2010, “DOI POAM
Process Standard” (Version 1.8), incorporating the use of CSAM and automating
the process. DOI’s June 2009 “C&A Guide using CSAM Solution v2.0” provides
additional details and procedures for maintaining the POAM program using the
CSAM solution.

According to NIST Special Publication 800-37, Revision 1, “Guide for Applying
the Risk Management Framework to Federal Information Systems,” the Plan of
Action and Milestones is one of the three key documents in the system
authorization package and is used by the authorizing official to monitor progress
in correcting weaknesses.

The POAM describes the tasks planned to:

    •   “Correct any weaknesses or deficiencies in the security controls noted
        during the assessment;” and
    •   “Address the residual vulnerabilities in the information system.”

It also identifies:

    •   “The tasks to be accomplished with a recommendation for completion
        either before or after information system implementation;
    •   The resources required to accomplish the tasks;
    •   Any milestones in meeting the tasks; and
    •   The scheduled completion dates for the milestones.”

Policy Implementation
All bureaus have complied with Departmental guidance to use the CSAM solution
for system Plans of Action and Milestones. Data in the system could be valuable
for management and oversight purposes. We determined that the Department,
specifically the Cyber Security Division, has initiated oversight efforts to enhance
the data quality within CSAM. The Cyber Security Division sent copies of review
items to bureaus, instructing them to take corrective action. Based on our analysis,
extensive effort is necessary to enhance the Plan of Action and Milestones data
quality. In June 2010, a CSAM system failure was followed by an unsuccessful
backup. The Department CIO informed users that data was lost back to
approximately February 19, 2010. POAM updates entered in the database during
that period of time were impacted, but bureaus were not able to fully assess the
impact. During our fieldwork they were still in the process of determining what
data was lost.



                                                                                 30
CSAM automates the Plan of Action and Milestones process and enables the OIG
to perform efficient analysis of the data. As with any automated system, the
output is only as good as the data input. We identified errors, incomplete
information, and missing artifacts associated with the Plan of Action and
Milestones. A consolidated October 4, 2010 CSAM Plan of Action and
Milestones report for all systems showed:

   •   The total estimated cost associated with Department Plan of Action and
       Milestones is more than $7 billion ($7,603,531,653);
   •   Continuous monitoring weaknesses have an estimated $120.5 million
       associated cost with limited project investment planning;
   •   Network access control weaknesses have an estimated $3 billion
       associated cost with limited project investment planning;
   •   11,064 Plan of Action and Milestones weaknesses are associated with
       agency systems;
   •   1,141 are associated with contractor systems;
   •   3,580 are in delayed status;
   •   1,330 have not been started;
   •   3,227 did not have an estimated associated cost;
   •   5,579 of them estimated the cost to be less than $1,000 each;
   •   1,358 Plan of Action and Milestones did not have any milestones;
   •   5,808 were completed in an overall average of 277 days (range was 1 to
       3,322 days);
   •   6,671 did not have an associated artifact posted;
   •   16 had blank “detailed weakness descriptions”;
   •   12 had blank “POAM titles”;
   •   1,254 had planned finish dates that were blank or to be determined;
   •   257 did not include organization priority (i.e., high, medium, or low);
   •   487 were identified as mission critical;
   •   76 of the 487 mission critical Plan of Action and Milestones were
       completed on an overall average of 218 days (range was 1 to 868 days);
   •   1,634 Plans of Action and Milestones were identified as related to
       financial systems;
   •   853 were missing system status (e.g., development, initiation, operational,
       or retired); and
   •   77 with either incorrect actual start or finish date, as the time to correct
       was negative.

Using the data above we concluded that bureaus are gathering data in CSAM, but
it is not being used to manage IT weaknesses, manage risks, or prioritize
corrective action or resource allocation. We further concluded that the data is not
being used to perform effective management and oversight of the Plan of Action
and Milestones program.



                                                                                 31
We identified inconsistencies among three bureaus in implementing their Plan of
Action and Milestones programs. One of the three bureaus that we reviewed
performed further analysis of the data to identify IT controls associated with
system Plan of Action and Milestones and various statistics (e.g., delays,
milestones, etc.) associated with its Plan of Action and Milestones, but the
process was not fully implemented. Bureaus with large, complex systems do not
have an established method for combining weaknesses for all component parts of
the system. Also, quarterly Plan of Action and Milestones briefings for the
authorizing officials are not conducted consistently.

The Impact of CSAM Failure
The Plan of Action and Milestones program was significantly impacted from the
CSAM backup failure. During our fieldwork, all three bureaus stated that they
experienced data loss and would need additional resources to restore it. Most
bureaus were unable to establish a dollar impact but all said it was a big step
backward. We were told by one bureau that Plan of Action and Milestones cannot
be reentered using historical ID numbers, and therefore tracking capabilities are
lost.

 Recommendation

      15. Ensure that the Department and bureaus are accountable for
          consistent and accurate data in CSAM to manage Plan of Action and
          Milestones weaknesses.


Remote Access
Policy
In August 2006, the Chief Information Officer directed all bureaus to transition to
the Department’s remote access system by January 31, 2007, and a May 2007
Office of Management and Budget memorandum 19 requires two-factor
authentication for remote access.

FISMA emphasizes the need for organizations to implement an organization-wide
information security program. NIST Special Publication 800-46, Revision 1,
“Guide to Enterprise Telework and Remote Access Security,” provides details of
preparing, operating, and securing remote access solutions.

The DOI IT Security Policy Handbook requires that bureaus mitigate the risk
associated with connecting equipment remotely and that access shall be
exclusively provided by Government-owned computers. It states the following
safeguards must be implemented for remote access:


19
  OMB M-07-16, “Safeguarding against and Responding to the Breach of Personally Identifiable
Information.”

                                                                                               32
     •   Multi-factor authentication;
     •   Whole disk encryption;
     •   File and folder encryption;
     •   Host-based Anti-Virus software;
     •   Host-based firewall;
     •   Patch management;
     •   Security Technical Implementation Guides; and
     •   Virtual Private Network (VPN) / Encryption of data in transit.

Policy and Telework
The DOI IT Security Policy Handbook provides a set of minimum standard
elements for bureaus to address the protection of PII and sensitive data, remote
access, and mobile computing device usage in their Rules of Behavior agreement.
Copies of bureaus’ Rules of Behavior can be accessed in DOI Learn through the
training course titled “FY 2010 Annual End-User Federal Information Systems
Security Awareness + Privacy and Records Management.”

We found a lack of telework or remote access addressed within the Rules of
Behavior from bureaus. Also, the Department does not have an up-to-date
telework policy addressing security of remote access 20 despite a June 2009
revision to NIST Special Publication 800-46, which states that “a telework
security policy should define which forms of remote access the organization
permits.” We did not find this guidance during our review of the Department’s
telework policy.

Numerous Solutions for Remote Access
Remote Access is noncompliant with the Office of Management and Budget or
DOI mandates. More remote access systems have been added against the
Department’s direction and two-factor authentication has not been fully
implemented. These inconsistencies facilitate an unmanageable remote access
environment.

Our analysis of remote access systems uncovered a significant vulnerability at
FWS. We found that FWS implemented a remote access solution that the
Department did not approve to operate. We immediately notified the Department,
and it discontinued the remote access system from connecting through the
Department until its risks can be formally assessed. Further analysis revealed that
FWS called it a “pilot” and had 100 or more users on the remote access system for
about 6 months. The Department’s Enterprise Infrastructure Division, which
monitors and controls the Department’s perimeter, was unaware of FWS’s remote
access solution.

We also found that BLM, NBC, NPS, and USGS maintain and use separate
remote access systems, even 3 years after the January 31, 2007 deadline for
20
  DOI telework policy has not been updated since Personnel Bulletin No. 05-02 first established one on
February 18, 2005.

                                                                                                         33
transitioning to the Department’s remote access system. FWS was found to have
implemented a new remote access solution this year.

Two-Factor Authentication for Remote Access
DOI cannot enforce two-factor authentication for remote solutions because not all
personnel have been issued Personal Identity Verification (PIV) cards 21 (for more
information, see the Account and Identity management section of this report). The
Department does not enforce two-factor authentication with users who have that
ability.

We reviewed the Department’s connections to the DOI centralized remote access
solution in August 2010 and found percentages of users using two-factor
authentication varied among bureaus. The Department did not have insight into
the disparate remote access for those bureaus.

Department-wide, 22 percent of users logged in, in August 2010, using two-factor
authentication for remote access. Bureau compliance ranges from 0 to 100 percent
in their use of two-factor authentication. The following percentages show bureau
compliance with the use of two-factor remote access within the bureaus:

     •   OHA: 0 percent;
     •   FWS: less than 1 percent;
     •   MMS: 2 percent;
     •   NBC: 2 percent;
     •   OS: 3 percent;
     •   NPS: 6 percent;
     •   BIA: 12 percent;
     •   BLM: 35 percent;
     •   USGS: 47 percent;
     •   OST: 70 percent;
     •   OHTA: 77 percent;
     •   USBR: 94 percent; and
     •   OSM: 100 percent.

Connections to Remote Access
During our interviews at the bureaus, we found that any computer, such as a
personal or public library computer can connect to the Department’s remote
access solution, despite the DOI IT Security Policy Handbook requirement that
only Government computers can access the Department’s remote access solution.
This means that the Department can only enforce one of the eight safeguards:
“Virtual Private Network (VPN) / Encryption of data in transit.” The Department
has no way to validate that personal computers are configured securely. If the
Department enables host checking, 22 DOI can reasonably ensure that only
21
  As of September 30, 2010, 27,326 personnel have yet to be issued PIV cards.
22
  Host checking would allow the Department to authorize remote access connections based on criteria such
as security configurations.

                                                                                                      34
authorized Government computers with the proper security configurations can
connect to DOI remotely.

 Recommendations

      16. Consolidate remote access solutions to allow efficiency and reduce
          duplicative services.

      17. Enforce two-factor authentication.

      18. Enable host checking for remote access.

      19. Update the telework policy from Personnel Bulletin No. 05-02.


Account and Identity Management
Policy
FISMA requires Federal agencies to provide information security for its IT assets.
Account and identity management directly correlates with the ability to securely
manage IT assets. Homeland Security Presidential Directive 12 mandates the use
of standard identification for employees and contractors by October 27, 2009, so
as to be compliant with Federal Information Processing Standards 23 and NIST
Special Publication 800-63. 24

DOI Personnel Bulletin 09-06 25 requires compliance with Federal Information
Processing Standards 201-1 and Homeland Security Presidential Directive 12.
The Chief Information Officer’s December 2009 memorandum, “DOI Access
Procedures for Bureau/Office Active Directory and Email Systems,” recommends
that bureaus adhere to new account provisioning procedures and align with DOI
Personnel Bulletin 09-06.

The DOI IT Security Policy Handbook requires that bureaus “manage all
information system accounts, including establishing, activating, modifying, and
reviewing, disabling, and removing accounts…” and “ensure information system
accounts are reviewed at least every 3 months.”

In a September 27, 2010 management advisory, we expressed concern for simple
social engineering techniques that showed a lack of or failure to follow account
management procedures. Social engineering results ended in obtaining the
username and password for accounts of a Chief Information Security Officer,
field office managers, human resources staff, and a domain administrator.


23
   201-1, “Personal Identity Verification of Federal Employees and Contractors,” issued in March 2006.
24
   “Electronic Authentication Guideline,” issued in April 2006.
25
   “Policy for the Issuance and Management of DOI Access Cards,” issued in June 2009.

                                                                                                         35
The DOI Access Program
Of the three bureaus we reviewed, we found only one bureau following guidance
for account provisioning 26 procedures for the DOI Access system as outlined in
the Chief Information Officer’s December 2009 memorandum. 27 The procedures,
however, are ambiguous because they “recommend” instead of specifically direct
the intended procedures. This lack of direction caused confusion, and as a result,
the Department is neither compliant with nor fully using the DOI Access system.

Also, we found that account management procedures were duplicative and
inconsistently implemented and distributed. A major objective behind the
procedures is to create new accounts in the DOI Access System. We found that 9
months after the January 15, 2010 deadline, not all accounts were created within
the system.

The DOI Access System cannot provide a full identity management program. It
contains contractor status only for contractors with DOI network access but not all
DOI contractors require DOI network access. The DOI Access system does not
manage access to the copious amount of individual DOI applications. Until all
contractors and all disparate DOI applications are considered and entered into
DOI Access, the Department will continue to lack one authoritative source for
identity management.

Personal Identity Verification (PIV) Cards
Implementing the standard identification mandate from Homeland Security
Presidential Directive 12 increases IT security because it ensures that people are
who they say they are. Standard identification is a significant element to
confirming users’ identities because it employs a two-factor authentication, which
grants a user access only when they can combine something they have with
information that they know (e.g., a Personal Identity Verification card and a
password or personal identification number).

The Department reported a December 31, 2010 completion date to the Office of
Management and Budget for integration of PIV credentials with logical and
physical access systems. We found, however, that the Department has not yet
activated PIV cards to 15,682 employees (24 percent) and 11,637 contractors (78
percent) as of September 30, 2010.

The Department considers the following bureaus at risk. A bureau’s risk is
attributed to PIV card issuance and in some instances, includes employees,
contactors, or both:

    •    BIA, which is at 59 percent issuance for employees and 2 percent for
         contractors;

26
   We found OSM at 100 percent compliance, BLM with limited implementation, and NPS testing the
procedures at one office.
27
   “DOI Access Procedures for Bureau/Office Active Directory and Email Systems.”

                                                                                                  36
       •       BIE, which is at 40 percent issuance for employees and 2 percent for
               contractors;
       •       BLM, which is at 73 percent issuance for employees and 2 percent
               issuance for contractors;
       •       NPS, which is at 68 percent issuance for employees and 6 percent for
               contractors;
       •       FWS, which is at 78 percent issuance for employees and 9 percent for
               contractors;
       •       USBR, which is at 60 percent issuance for contractors;
       •       BOEMRE, which is at 52 percent issuance for contractors;
       •       OS, which is at 54 percent issuance for contractors; and
       •       SOL, which is at 24 percent issuance for contractors.

                                            DOI ACCESS DASHBOARD FOR EXISTING EMPLOYEES
                                                              Phase II Status as of September 30, 2010
                           NACI Processing                             STEP 1:                    STEP 2:                        STEP 3: ACTIVATION
                                                               SPONSORSHIP                 ENROLLMENT                100 percent revised goal by 12/31/09 (Monthly
                                                            (Monthly Cumulative)        (Monthly Cumulative)                           Cumulative)
  Bureau                                                                                                                                                         Actual
                                                                                                                                                 Revised
                                                Percent                      Percent                    Percent      Revised                                    Percent
                FPPS PP23       Actual                        Actual                      Actual                                    Actual       Percent
                                              Complete*                    Complete*                  Complete*      Goal**                                   Complete***
                                                                                                                                               Complete***
                                                                                                                                                                   *
BIA               5,047         4,540            90%           5,335         106%         4,039             80%       2,537         2,976         117%           59%
BIE               4,130         3,707            90%           4,362         106%         2,170             53%       2,075         1,668          66%           40%
BLM               10,874       10,874            100%         10,969         101%         9,973             92%       5,971         7,938         133%           73%
USBR              4,961         4,961            100%          5,683         115%         5,471         110%          4,274         5,045         118%           102%
FWS               9,309         9,054            97%           9,316         100%         8,402             90%       4,936         7,254         147%           78%
BOEMRE            1,645         1,668            101%          1,828         111%         1,796         109%          1,447         1,751         121%           106%
NBC                1,245       1,229             99%          1,220              98%       1,201            96%        1,090        1,140         105%           92%
NPS-              16,697       16,697            100%         16,455             99%      14,245            85%       13,037       11,305          87%           68%
OHTA                27           27              100%           27           100%           27          100%            27            27          100%           100%
OS                 978           978             100%          1,300         133%         1,281         131%           879          1,208         137%           124%
OSM                529           528             100%           585          111%          582          110%           460           548          119%           104%
OST                644           644             100%           675          105%          667          104%           518           649          125%           101%
SOL                415           415             100%           452          109%          446          107%           414           416          100%           100%
USGS              8,839         8,839            100%          9,844         111%         9,088         103%          6,896         7,870         114%           89%
       Total     65,340        64,161            98%          68,051         104%        59,388             91%      44,561        49,795         112%           76%


 Percent                                   * Percent Complete = Actual (ASR dated 10-04-10) / FPPS PP23 2008 Data

 complete                                 ** Revised Goal = FPPS PP23 excluding employees outside of reasonable travel time from open Credentialing Centers
90% or more On schedule                  *** Percent Complete = Actual / Revised Goal
 80% - 89%     Behind                  **** Percent Complete = Actual /FPPS PP23 2008 Data
 0% - 79%      At Risk




Figure 8. Percentages exceeding 100 percent are caused by a fluctuating baseline.




                                                                                                                                                                       37
                          DOI ACCESS DASHBOARD FOR CONTRACTORS/AFFILIATES
                                                Phase II Status as of September 30, 2010
                          NACI Processing               STEP 1: SPONSORSHIP           STEP 2: ENROLLMENT      STEP 3: ACTIVATION
                                                         (Monthly Cumulative)          (Monthly Cumulative)   (Monthly Cumulative)

  Bureau
               OMB QTR                       Percent                   Percent                     Percent                Percent
                              Actual                      Actual                       Actual                  Actual
                REPORT                      Complete*                Complete*                    Complete*              Complete*

BIA/BIE           2,850        2,500          88%          196           7%              122          4%         67          2%
BLM               3,750        1,000          27%          134           4%              114          3%         57          2%
BOR                646          640           99%          854          132%             630         98%        385         60%
FWS                745          139           19%           96           13%             82          11%         67          9%
BOEMRE             380          370           97%          295           78%             245         64%        197         52%
NBC                626          527           84%          686          110%             633         101%       513         82%
NPS               3,750         195            5%          316           8%              269          7%        241          6%
OHTA               408          408           100%         408          100%             382         94%        360         88%
OS                 354          354           100%         284           80%             273         77%        191         54%
OSM                 35          35            100%          43          123%             40          114%        34         97%
OST                150          150           100%         163          109%             155         103%       152         101%
SOL                 38          22            58%           29           76%             29          76%         9          24%
USGS              1,187        1,187          100%        1,598         135%            1,334        112%      1,054        89%
      Total      14,919       7,527           50%         5,102          34%            4,308        29%       3,327        22%


 Percent                               * Percent Complete = Actual / OMB QTR REPORT
complete
90% or more On schedule
 80% - 89% Behind
 0% - 79%     At Risk




Figure 9. Percentages exceeding 100 percent are caused by a fluctuating baseline.

The Department has issued PIV cards to 53,122 employees and contractors, but
card use is not enforced. This impacts Departmental privacy, data security,
authentication, and overall security posture and causes the Department to fall
short of compliance with Homeland Security Presidential Directive 12. Full PIV
card compliance would mitigate many of the account management issues
addressed in the DOI Access Program section.

Other Fieldwork
Active Directory
We conducted an evaluation of Active Directory in February 2010 to assess the
efficiency and effectiveness of its information security controls. Active Directory
is a Microsoft technology that provides network services that enable applications
to use, find, and manage directory resources such as printers, permissions, and
users. It unifies management of IT resources such as security, passwords, users
and groups.

We found no standardization for naming conventions, how group policies are
structured, creating accounts, or monitoring accounts. In some cases, we even
found that a lack of standardization for account management existed within the
same bureau.

Capabilities to secure user accounts exist in Active Directory. These capabilities
include locking accounts to specific workstations, locking them only to certain
hours during the day, or setting them to disable after a certain date. We found that
                                                                                                                                     38
those capabilities were either not consistently implemented or not used at all. We
also found training account usernames and passwords on sticky notes posted to
workstations, which allows anyone with access to these workstations to log into
the account from anywhere in the bureau.

FISMA Fieldwork
We identified inconsistent and poor account management practices during our
FISMA review of three bureaus. We found that:

   •   One NPS helpdesk did not follow procedures for changing passwords;
   •   Four BLM State helpdesks did not follow procedures for changing
       passwords, which resulted in four successful social engineering exploits;
   •   Answers to the BLM National Helpdesk’s challenge questions were found
       on the Internet. These weak questions led to a successful social
       engineering exploit; and
   •   The OSM helpdesk did not have adequate procedures to validate users
       calling in for password changes. We obtained a password for the Chief
       Information Security Officer.

 Recommendations

    20. Ensure account management procedures adhere to policies.

    21. Ensure identity verification security questions are unique and answers
        cannot be easily obtained.

    22. Issue PIV cards to all employees and contractors.

    23. Enforce the use of PIV cards for all employees and contractors.


Continuous Monitoring
Policy
A continuous monitoring program encompasses all automated and manual
processes implemented in the environment to maintain awareness regarding the
organization’s security posture. According to NIST, “the objective of a
continuous monitoring program is to determine if the complete set of planned,
required, and deployed security controls within an information system or inherited
by the system continue to be effective over time in light of the inevitable changes
that occur.” Neither DOI nor its bureaus have an established continuous
monitoring strategy even though it is required by FISMA.




                                                                                 39
Continuous monitoring is integral to NIST Special Publication 800-37, 28 Revision
1, and NIST expects the updated guidance to be fully implemented by February
2011. The Office of Management and Budget elaborates in M-10-15, 29 stating
that agencies “should develop an enterprise-wide strategy for selecting a subset of
their security controls to be monitored on an ongoing basis to ensure all controls
are assessed during the 3-year authorization cycle.”

Continuous monitoring policies are disparate or lacking at many of the
Department’s bureaus and offices. We found draft policy at five bureaus,
undeveloped policy at three bureaus, and no policy at five bureaus. Without well-
defined policies and coordinated procedures for continuous monitoring, the
program is fragmented.

Fragmented Continuous Monitoring
The Department and bureaus have Plan of Action and Milestones 30 (POAM) with
an estimated cost of $120.5 million to mitigate the weaknesses associated with
continuous monitoring.

According to NIST, continuous monitoring programs include: configuration
management, security impact analyses on proposed or actual changes,
assessments of selected security controls, and active involvement by authorizing
officials in the ongoing management of information system security risks.
Accomplishing the objectives of the program would require an effective
mechanism to update security plans, security assessment reports, and POAM.
Also, assessing the ongoing security posture will demand vulnerability scanning
tools, network monitoring tools, and other automated support tools that can help
determine the security state of an information system.

The Department’s Enterprise Infrastructure Division has a multitude of automated
capabilities for continuous monitoring, but full implementation has not occurred.
Enterprise Services Network, a part of the Enterprise Infrastructure Division, has
the technical capabilities to provide continuous monitoring services as detailed in
its “Service Catalogue.” Bureaus lack consistency as to which services to
leverage. We found that DOI fails to integrate data feeds that would facilitate the
maturation of the continuous monitoring program. The feeds would encourage a
more timely and efficient data collection process.

We found that the Department’s Data Loss Prevention system can identify and
report personally identifiable information (PII) incidents but cannot prevent them.
The system’s next phase of implementation is to prevent PII incidents but
resource limitations hinder progress. The Enterprise Services Network at the

28
   Revision 1, “Guide for Applying the Risk Management Framework to Federal Information Systems,”
February 2010.
29
   “FY2010 Reporting Instructions for the Federal Information Security Management Act and Agency
Privacy Management.”
30
   Continuous Monitoring POAMs: Department CSAM ID numbers 10918 and 13963; 102 Bureau POAMs
associated with 74 systems.

                                                                                               40
Department’s Security Operations Center assesses and manages PII incidents, but
it does not have sufficient resources to manage them all. Bureaus assist
Departmental personnel by managing their own PII incidents.

We found that only BLM and USGS personnel who manage their bureau’s PII
incidents are at the Security Operations Center on a fulltime basis. BIA, NPS,
OSM, and MMS are managing their incidents at the Security Operations Center
on a part-time basis. The remaining bureaus do not assist Security Operations
Center personnel with managing PII incidents. More than 200 PII incidents are
waiting for remedy within the Department’s Data Loss Prevention solution as of
September 30, 2010.

                       PII Escalated Incidents by Bureau




Figure 10. This is a snapshot of the Department’s Data Loss Prevention system from June 1
to September 30, 2010. More than 200 PII incidents are waiting to be remedied.

Our fieldwork at three bureaus also revealed ad hoc continuous monitoring
programs. The bureaus would conduct vulnerability scanning, application
patching, and vulnerability mitigation as time permitted or urgency demanded.
We found that endpoint protection applications were not properly configured to
report to a central location so that bureaus could assess the identified situation on
time.

We also determined that monitoring software for Active Directory was not
configured to monitor significant events associated with user accounts. Risks
cannot be assessed and managed if automated systems are not continually
monitoring, if data is not analyzed, if trends are not established, and if reports to
management personnel are not occurring.




                                                                                       41
Security Status Reports
To assess risks, authorizing officials need ongoing results from continuous
monitoring, updated security plans, security assessment reports, and POAMs. We
found only one example of a complete security status report, prepared for
Enterprise Services Network, a system in our sample. The reporting, however, did
not occur regularly. DOI guidance suggests neither the format nor content for a
security status report.

Unused Investments
We found that many continuous monitoring investments are sitting idle or largely
unused. A Departmental system called OPNET is capable of mapping the DOI
network and identifying IT assets. It can help detect changes in the network
infrastructure and provide an accurate and dynamic IT asset inventory for
successful continuous monitoring, but these processes have not been completed
because bureaus have not agreed to network adjustments that would enable the
process.

Not all bureaus have the system configured to report to an application for Active
Directory security enhancements, which would assist with monitoring user
account management. We also found an asset inventory, auditing, and logging
system that can pull hardware and software reports and provide patch
management status. This DOI system sits idle because the bureaus have not made
the necessary changes to report to the Department.

 Recommendations

    24. Create a comprehensive, enterprise-wide strategy for continuous
        monitoring.

    25. Establish a format and content template for the authorizing official’s
        security status reports.

    26. Enhance the Department’s continuous monitoring program using
        existing investments.

    27. Ensure that bureaus are reporting to centralized Departmental
        continuous monitoring systems.

    28. Establish procedures for using a security assessment report and design
        a format and content template.




                                                                                 42
Contingency Planning
Policy
FISMA requires that information system contingency plans be part of DOI’s IT
security program. The DOI IT Security Policy Handbook clearly states that
bureaus “develop and implement contingency plans for all information systems.”
DOI policy also requires annual plan testing and personnel training regarding
their roles and responsibilities in executing the plan.

Plans should be documented in accordance with NIST Special Publication 800-
34 31, which addresses contingency planning more extensively than any of the
available DOI guidance. According to NIST, guidance must be fully implemented
by May 2011.

DOI guidance does not provide DOI system users with adequate information to
establish a suite of plans related to the contingency or enough information to
understand how their system plan fits into a larger, emergency-preparedness
program. 32 DOI guidance needs to be improved significantly to assure system
contingency plans comply with NIST.

Contingency plans and testing
We found that contingency plans generally are poorly documented, not based on
realistic consideration of threats, and have not been annually updated and tested.
The plans in our sample described the planning process, rather than realistic
threats and proposed measures to reduce their impact.

Information system contingency plan tests are intended to evaluate the viability of
a plan, and identify deficiencies and lessons learned. Although FISMA requires
annual, documented tests, we found that many testing scenarios were simplistic
and provided limited documentation and conclusions to justify the worth of plan
testing.

The backup failure associated with the Office of the Chief Information Officer’s
own CSAM solution was a major setback that exemplifies the importance of
contingency plan testing. System backup and recovery procedures are part of
contingency planning; they are to be tested annually in accordance with DOI
policy. In the case of the CSAM failure, not all bureaus retained duplicate
documentation that could be used for restoration. Had CSAM’s contingency plan
been tested, it is likely the backup “glitch” would have been detected earlier and
potentially mitigated its impact.

We found many areas where plans in our sample fell short. Eight plans have not
been updated within the last year, as required. One contingency plan had not been

31
   Revision 1 of NIST Special Publication 800-34, titled “Contingency Planning Guide for Federal Systems,”
was released in May 2010.
32
   “Certification and Accreditation (C&A) Guide Using the Cyber Security Assessment and Management
(CSAM) Solution Version 2.0.”

                                                                                                       43
updated since 2006. We also identified eight systems that did not conduct timely
contingency plan tests and three that failed to provide any artifacts to document
the test.

We also found that contingency plans for systems with high security
categorization also were not tested or updated on time. Specifically, we noted that
six of the 10 DOI systems were not tested annually, and seven of the 10 plans
were not updated annually as is required for all information system contingency
plans.

Large, complex systems have not established a contingency plan or even a
strategy to consolidate a plan for General Support Systems. Bureaus with large,
complex systems have not documented their process for combining the
component plans into a consolidated plan for the entire system. We determined
some of the component plans have not been updated since 2004. Outdated
contingency plans for the component parts are not useful when considering
contingency planning for the whole system.

We found that bureaus’ various interpretations of the contingency planning
process have resulted in inconsistent implementation. According to NIST Special
Publication 800-34, “universally accepted definitions for information system
contingency planning and the related planning areas have not been available.
Occasionally, this leads to confusion regarding the actual scope and purpose of
various types of plans.” DOI guidance does not address key contingency planning
areas, including business impact analysis, business continuity plans, and disaster
recovery plans.

Lack of Integration
During our fieldwork, we asked how the bureaus incorporate their information
system contingency plans into their overall risk-management, security, and
emergency-preparedness programs. We found that the system contingency plans
were not considered as part of the bureaus’ or location’s emergency-preparedness
programs. We found one system contingency plan in our sample had been
incorporated into a combined contingency plan for all IT operations at that
location. The individual information system contingency plans had been
considered in aggregate to establish a larger, integrated plan. DOI is unfamiliar
with the concept that a suite of plans would be necessary in the event of a
disruption. The response, continuity, recovery, and resumption of mission and
business functions and information systems are situational, but bureaus have no
comprehensive planning guidance to follow.

 Recommendation

    29. Update contingency planning guidance to correspond with NIST Special
        Publication 800-34, Revision 1, before May 2011.


                                                                                  44
Oversight of Contractor Systems
Policy
Overall, Departmental policy regarding contractor oversight is lacking, even
though FISMA’s requirements for information security also apply to contractor
systems, 33 and responsibility and accountability reside with DOI.

FISMA requirements and contractor oversight are addressed in multiple sources
of Federal guidance. Interdependencies exist between the various sources of
guidance, and coordinated oversight practices are required to ensure effectiveness.
Federal Acquisition Regulations (FAR) emphasize the IT security requirements
that are included in acquisition documents. The security requirements are much
more extensive than just the clauses included in the acquisition documents.
FISMA requires that contractors comply with the contracting agency’s IT security
policies for their program. NIST and OMB provide guidance for implementing
FISMA, which often includes requirements for contractors. All four sources
(FAR, agency policies, NIST, and OMB) require oversight of contractors.
Focusing on any one of the four sources of guidance narrows contractor oversight
requirements and does not address the comprehensiveness of the IT security
requirements.

The DOI IT Security Policy Handbook does not address contractor oversight
responsibilities beyond the capital planning process. It only includes language to
be included with Exhibit 300, the business case submission to the OMB for IT
capital projects. Also, Departmental policy neither addresses ongoing oversight
responsibilities and how the efforts should be documented nor does it provide
clear guidance for identifying contractor systems in inventory (for more
information, see the IT Inventory section of this report).

Policy Weaknesses
An April 2005 U.S. Government Accountability Office report identified oversight
weaknesses of contractors who provide IT systems and services. 34 Also,
independent auditors conducting the FY 2010 DOI Financial System Audit
identified contractor monitoring concerns in a Notice of Finding and
Recommendation (NFR DOI-2010-0007). Specifically, they found that “DOI does
not have a centralized system to accurately track the entire population of
contractors with access to Interior’s IT systems.”




33
   FISMA § 3544(a)(1)(A)(ii) describes Federal agency security responsibilities as including “information
systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an
agency.” Section 3544(b) requires that each agency provide information security for the information and
“information systems that support the operations and assets of the agency, including those provided or
managed by another agency, contractor, or other source.”
34
   Report No. GAO-05-362, titled “Information Security: Improving Oversight of Access to Federal Systems
and Data by Contractors can Reduce Risk.”

                                                                                                        45
Impact
Full identification of contractors and contractor systems is fundamental to
contractor oversight responsibilities. DOI Access is issuing PIV cards to 14,947
contractors and, to date, has issued them to only 23 percent of the contractors (see
the Identity and Account Management section of this report). The DOI IT system
inventory identifies 23 accredited contractor systems. During our review of the
sample of systems, however, we found three components with contractor-
provided IT services or equipment not clearly identified in DOI IT inventory.
Assuring the implementation of oversight procedures is impossible if components
are not clearly identified in inventory, just as it is impossible to assure contractor
compliance with various FISMA requirements if DOI cannot accurately identify
them.

Vague guidance statements regarding applicability to contractors are found
throughout Department policies. The procedures for contractor oversight are not
detailed nor are the documentation requirements defined. We found no clear
evidence that the contractor oversight processes have been implemented, but we
did see references to contractor operations comingled with agency assessments.
Roles and responsibilities for the IT security program elements are not clearly
delineated between DOI and contractors.

Bureaus that are required to perform contractor oversight have not established or
followed a systematic process, and DOI does not have specific policies for
overseeing contractor security practices. The ramifications of not performing
contractor oversight significantly impacts identification risk and compliance with
FISMA, NIST, Office of Management and Budget, and FAR.

The Department cannot have assurance of its security posture for multiple IT
security program areas without contractor oversight of the following:

   •   Annual assessment of controls at contractor locations;
   •   Completed IT inventory;
   •   Security training (role-based security and FISSA training);
   •   Personnel security (background investigations);
   •   Physical security (security of data, facility, systems);
   •   Privileged access to Federal data and systems;
   •   Oversight of sub-contractors at a contract facility;
   •   Information controls (privacy) over shared environments;
   •   Interconnection security agreements and memorandum of understanding;
   •   The DOI Access process for contractors;
   •   FDCC compliance;
   •   Encryption when transporting data;
   •   Ongoing risk assessments;
   •   Completions of e-risk authentications; and
   •   Contractors’ system maintenance (e.g., patching, virus protection,
       scanning, etc.).
                                                                                   46
Contracting Practices — Hardware and Software Purchases
IT acquisitions are not centrally managed within DOI or bureaus. During
fieldwork, we determined that hardware and software purchase generally occur in
three ways: under the DOI blanket purchase agreements, General Services
Administration schedule (IT Schedule 70), or direct purchase at various bureau
levels. We were unable to validate that FAR, parts 39 and 39 D 35, were
consistently included on contracts managed at the bureau level. During fieldwork,
we were told that personnel with direct purchase authority routinely purchase
hardware. Such purchases make maintaining an accurate IT Inventory difficult
and DOI is not assured they are obtaining secure configurations. We found that
copies of contracts for workstation acquisitions did not include FDCC
requirements.

We determined that IT security requirements were not consistently included in IT
service contracts. We found some security requirements added to some service
contracts, but the content varied significantly between bureaus. Furthermore, we
determined that the oversight requirements were not specifically referenced or
stated.

We also found that bureaus purchase software outside of the Department’s
enterprise license agreements or blanket purchase agreements, so discounted rates
are not applied. From 1999 to 2009, bureaus purchased 7 percent of their Adobe
products outside of Department contracts. Symantec, an end-point security
provider in DOI, stated that “the current enterprise agreement is only about 50
percent” of what the bureaus spend with Symantec annually. Such purchases
increase the overall costs associated with software purchases. Without the ability
to control software acquisitions, the Department cannot ensure efficient spending
and standardized software.

 Recommendations

      30. Define, document, and establish procedures for contactor oversight in
          accordance with FISMA requirements.

      31. Coordinate between IT security and the associated procurement
          contracting office.




35
   Part 39 of the Federal Acquisition Regulation (FAR) requires agencies to include appropriate information
technology security policies and requirements when acquiring information technology, and Part 39d
incorporates requirements for using common security configurations.

                                                                                                         47
Conclusion and Recommendations
Conclusion
Poor information in management information systems and inconsistent
implementation continues to impact the DOI IT security program. Bureaus will
remain unaccountable for their IT security shortcomings and inconsistencies will
persist until they are required to follow DOI policy and guidance. Fundamental
program components must improve or they will continue to struggle to satisfy
FISMA requirements.

Recommendation Summary
To address the deficiencies identified in this report, we recommend that DOI:

   1. Standardize the use of terms within CSAM.

   2. Establish clear guidance for managing IT assets system inventory,
      including: the identification and documentation of minor applications, the
      identification (description, hosted, or operated) and documentation of
      contractor components, a process for adding systems in development to
      inventory, a process for adding test systems into inventory, and a process
      for mapping all components to authorization boundaries.

   3. Establish clear guidance for managing hardware and software asset
      inventory.

   4. Update DOI’s security authorization policy and guidance to incorporate
      the latest NIST guidance (NIST 800-37, Revision 1, and NIST 800-53,
      Revision 3).

   5. Merge the multiple DOI security authorization procedural documents into
      a single document. The guidance should clarify when the authorization
      process begins in the life cycle, the role of the senior risk executive, and
      clarify how information system boundaries are to be documented.

   6. Implement least privilege principal and control use of elevated user rights.

   7. Standardize Web browsers and firewalls on workstations Interior-wide.

   8. Document and approve all deviations from FDCC compliance.

   9. Implement network access controls.

   10. Implement incident response policies and procedures consistently
       throughout bureaus and offices.


                                                                                48
11. Require bureaus and offices to use the Department’s DOI CIRC database
    for incident response and reporting versus their own implementation.

12. Evaluate the current Rules of Behavior submission process to ensure it
    satisfies electronic signature requirements.

13. Implement a solution that assists in establishing accurate employee and
    contractor baseline counts, such as a central authoritative identity
    management system.

14. Review the qualifications of personnel performing IT security duties in the
    Department and reassign those duties accordingly.

15. Ensure that the Department and bureaus are accountable for accurate data
    in CSAM to manage Plan of Action and Milestones weaknesses.

16. Consolidate remote access solutions to allow efficiency and reduce
    duplicative services.

17. Enforce two-factor authentication.

18. Enable host checking for remote access.

19. Update the telework policy from Personnel Bulletin No. 05-02.

20. Ensure account management procedures adhere to policies.

21. Ensure identity verification security questions are unique and answers
    cannot be easily obtained.

22. Issue PIV cards to all employees and contractors.

23. Enforce the use of PIV cards for all employees and contractors.

24. Create a comprehensive, enterprise-wide strategy for continuous
    monitoring.

25. Establish a format and content template for the authorizing official’s
    security status reports.

26. Enhance the Department’s continuous monitoring program using existing
    investments.

27. Ensure that bureaus are reporting to centralized Departmental continuous
    monitoring systems.



                                                                              49
28. Establish procedures for using a security assessment report and design a
    format and content template.

29. Update contingency planning guidance to correspond with NIST Special
    Publication 800-34, Revision 1, before May 2011.

30. Define, document, and establish procedures for contactor oversight in
    accordance with FISMA requirements.

31. Coordinate between IT security and the associated contract procurement
    office.




                                                                               50
Appendix 1: Scope and Methodology
Scope
We conducted technical configuration testing at all bureaus, except the Office of
Hearings and Appeals, and comprehensive IT security program fieldwork to
include interviews, observations, and source documents at three bureaus:

   •    The National Park Service
           o National Information Technology Center (NITC) and Washington
              Support Office, Washington, DC, August 30 to September 2, 2010;
           o National Information Service Center, Lakewood, CO, September
              15, 2010; and
           o Rocky Mountain National Park, Estes Park, CO, September 20 and
              21, 2010.
   •    The Office of Surface and Mining
           o Office of the Chief Information Officer, Washington, DC, August
              4 to August 6, 2010.
   •    The Bureau of Land Management
           o Information Resource Management, IT Security Division (WO-
              590), Washington, DC, July 26 to July 28, 2010.

We selected a sample of 21 systems, which represent accreditation boundaries,
components of a larger boundary, or systems identified in the DOI environment.

              FISMA Sample of Systems for Fiscal Year 2010

 Sample                                                                    Security
                        System Name                     Acronym
   No.                                                                  Categorization
            Native American Student Information
    1                                                     NASIS            moderate
            System
    2       Land Records Information System                LRIS            moderate
    3       BLM GSS                                      BLM GSS           moderate
    4       LAWNET                                      LAWNET             moderate
    5       NIFCeNET GSS                                NIFCeNET           moderate
            National Conservation Training Center
    6                                                     NCTC             moderate
            Local Area Network NCTC LAN
    7       Talent Management System                       TMS             moderate
    8       AMAG Physical Acess Control System            AMAG             moderate
            NPS-GSS (Yosemite Wilderness Permit
    9                                                 OneGSS (Permit)      moderate
            System)
            NPS-GSS (Concessions Management              OneGSS
   10                                                                      moderate
            System)                                    (Concession)
   11       Technical Information Management System       TIMS             moderate
            OHTA Clifton Gunderson Indian Trust
   12                                                 OHTA-CGITIS            high
            Information System
   13       DOI Enterprise Services Network                ESN             moderate
            Incident Management Analysis and
   14                                                     IMARS         not categorized
            Reporting System
   15       Project Portfolio System                       PPM          not categorized


                                                                                          51
   16       Radio Systems (BLM, NPS, USGS)               Radio      not categorized
   17       OSM Enterprise GSS                         OSM-GSS        moderate
   18       OST LAN/WAN                                 OSTNet        moderate
   19       SOL-NET                                    SOL-NET        moderate
   20       Science and Support System - Moderate   S&SS-Moderate     moderate
   21       Science and Support System - Low          S&SS - Low          low



Within this sample, we looked beyond authorization packages to assess DOI’s
process for managing all IT system inventory. The authorization packages in our
sample included most bureaus, all security categorizations (i.e., high, moderate,
and low), and all types of systems (e.g., general support systems, major
application, minor applications, and undetermined), operational status (i.e.,
development and operational), and agency and contractor systems.

We based our analysis on data calls issued to the Department and bureaus during
fiscal year 2010. We completed additional analysis using information obtained
from two Departmental systems: DOI Enterprise Architecture Repository (DEAR)
and Cyber Security Assessment Management (CSAM) solution. We reviewed
applicable laws, regulations, Office of Management and Budget guidance,
National Institute of Standards and Technology standards, Government
Accountability Office reports, and Department and bureau policies. All applicable
standards and guidance were used as baselines for assessing the DOI IT security
program.

Methodology
FISMA requires agencies to have an annual independent evaluation of their
information security program and practices and for agencies to report results of
the evaluation to the Office of Management and Budget.

We conducted our FY 2010 FISMA evaluation to obtain information required for
Office of Management and Budget reporting. This report consolidates our
findings related to the Department of the Interior’s IT Security Program and their
compliance with key FISMA areas.

We conducted our evaluation in accordance with the “Quality Standards for
Inspections” as put forth by the Council of Inspector General on Integrity and
Efficiency. Accordingly, we included such tests and other procedures that we
considered necessary under the circumstances. The conclusions in this report are
based on our fieldwork, technical testing, data calls, and analysis of data in
Departmental systems.




                                                                                      52
Appendix 2: Summary of FISMA
Results (FY 2003 to 2010)
DOI spent an estimated $719.6 million on IT security since fiscal year (FY) 2003,
but FISMA noncompliance persists. Continued funding to DOI’s IT Security
Program as it is structured is inconsistent with OMB’s intent according to a
December 21, 2004 advisory (A-123, “Management’s Responsibility for Internal
Control”), which states “management accountability is the expectation that
managers are responsible for the quality and timeliness of program performance,
increasing productivity, controlling costs and mitigating adverse aspects of
agency operations, and assuring that programs are managed with integrity and in
compliance with applicable law.”

The following is a summary of conclusions from DOI FISMA evaluation reports
and the associated IT funding by fiscal year, beginning with 2003.

FY 2003
      IT Budget: $791.2 36 million, or 5.7 percent of the DOI’s overall budget
      ($13,881 million). 37
      FISMA report conclusion: “We found that the Department continues to
      make significant progress to improve the security over its information
      systems. However, its overall security program does not yet adequately
      protect all information systems supporting the operations and assets of the
      Department and therefore remains a material weakness.”

FY 2004
      IT Budget: $816.5 million, or 5.7 percent of the DOI’s overall budget
      ($14,325 million).
      FISMA report conclusion: “We found that the Department continues to
      improve the security over its information systems. However, despite sound
      guidance from the Office of the Chief Information Officer, we continue to
      identify weaknesses in bureau and office implementation of IT security
      requirements.”

FY 2005
      IT Budget: $802.8 million, or 5.7 percent of the DOI’s overall budget
      ($15,839 million).
      FISMA report conclusion: “We have determined that there are
      significant weaknesses in DOI’s compliance with FISMA, as well as its IT
      security program as a whole. Our audits, evaluations, and technical testing
      of DOI’s systems and IT security program show that bureaus and offices


36
     IT Budget was estimated for FY 2003, FY 2004 and FY 2005 using the average of the FY 2006-2009 IT percentages.
37
     The total DOI Budget for each fiscal year can be found at http://www.doi.gov/budget.

                                                                                                                  53
             are not implementing DOI policies and are not complying with OMB
             requirements for Certification and Accreditation.”

FY 2006
      IT Budget: $934.0 million, 38 or roughly 5.8 percent of DOI’s overall
      budget ($16,122 million).
      FISMA report conclusion: “Our testing and evaluation of DOI’s IT
      Security program for Fiscal Year 2006 indicates that DOI has made good
      progress in the following areas: System Inventory, POA&Ms, Computer
      Security Incident Response, and Contractor Oversight. Still more work is
      needed to improve DOI’s Certification & Accreditation program and the
      use of standard security configurations for servers, workstations,
      databases, and network equipment throughout DOI. Weaknesses in these
      two critical areas impact a broad set of federal requirements requiring the
      use of effective management, operational and technical controls.”

FY 2007
      IT Budget: $957.6 million, or roughly 6.1 percent of DOI’s overall
      budget ($15,799 million).
      FISMA report conclusion: “DOI made good progress in a number of key
      FISMA areas; however, our evaluation determined the DOI information
      security program has not been consistently implemented throughout the
      Department and the resulting weaknesses hinder achievement of full
      compliance with FISMA.”

FY 2008
      IT Budget: $952.7 million, or roughly 5.4 percent of DOI’s overall
      budget ($17,475 million).
      FISMA report conclusion: “As in the past several years, the Department
      has made progress in documenting information security; however,
      implementation lags. There remain fundamental flaws in compliance with
      the FISMA. Lack of compliance is due in large part to the decentralized
      nature of the Department, IT program and lack of authority by the
      Department’s CIO. These serious organizational flaws potentially negate
      the many millions of dollars spent on IT security annually. Lack of
      departmental oversight, coupled with questionably qualified personnel
      performing information security duties across the Department, contributes
      inadequate incident detection and response capabilities put the Department
      at substantial risk.”

FY 2009
      IT Budget: $965 million, or roughly 5.6 percent of DOI’s overall budget
      ($17,183 million).
      FISMA report conclusion: “As in previous years, we found DOI does
      not fully comply with the FISMA. The decentralized organizational
38
     IT Investment Portfolio amounts are from Exhibit 53 for each fiscal year.

                                                                                 54
       structure, fragmented governance processes related to the IT program, lack
       of oversight, bureau resistance to departmental guidance, and use of
       substantially under-qualified personnel to perform significant information
       security duties exasperates the challenges in securing the Department’s
       information and information systems.”

FY 2010
      IT Budget: $995.7 million or 8.2 percent of the DOI overall budget
      ($12,587 million).
      FISMA report conclusion: Poor information in management information
      systems and inconsistent implementation continues to impact the DOI IT
      security program. Bureaus will remain unaccountable for their IT security
      shortcomings and inconsistencies will persist until they are required to
      follow DOI policy and guidance. Fundamental program components must
      improve or they will continue to struggle to satisfy FISMA requirements.

FY 2011
      IT Budget: $981.8 million (proposed) or 8.05 percent of the DOI overall
      budget ($12,200 million).




                                                                              55
Appendix 3: Related OIG Reports,
Management Advisories, and
Evaluations
A list of summaries and updates, if applicable, for OIG reports and management
advisories related to IT’s Information Security Program and the fiscal year (FY)
2010 FISMA Evaluation is included below.

FY 2010
      Management Advisory: “Account Management,” September 27, 2010,
      documented occurrences of successful social engineering. It identified a
      lack of user account management procedures resulting in user accounts
      being compromised and gaining unauthorized network access.

       Report: “Evaluation of the Active Directory,” No. ISD-EV-MOA-0006-
       2010, August 2010, documented a lack of standardization in the Active
       Directory structure, unused investments, and a lack of separation of duties.

       Report: “Privacy Impact Assessment,” No. ISD-EV-MOA-0005-2010,
       June 2010, documented inconsistencies in implementing Privacy Impact
       Assessment requirements. We found processes for Privacy Impact
       Assessment requirements and Privacy Impact Assessments for IT systems
       have not been completed to identify privacy risks associated with sensitive
       information.

       Report: “Information Security Evaluation of the National Interagency
       Fire Center,” No. ISD-EV-MOA-0003-2010, June 2010, documented the
       lack of standardization, duplication, and redundancies at DOI bureaus that
       are co-located. In addition, radio systems were not certified and
       accredited.

       Management Advisory: “Deficiencies in System Inventory Technology,”
       OIG Case No. PI-PI-10-0045-1, March 2, 2010, documented the lack of
       accountability for hard drives of former DOI political appointees.

FY 2009
      Management Advisory: “Waste and Noncompliance in Departmental
      Information Systems,” October 15, 2009, documented that a vulnerability
      scanning system is underused and managed inconsistently with FISMA
      requirements.
      Update: No change identified during FY 2010.

       Evaluation: “Computer Configuration Evaluation,” No. ISD-EV-MOA-
       0003-2009, August 2009, documented broad noncompliance with

                                                                                 56
       mandatory Federal standards associated with the Federal Desktop Core
       Configuration as well as OMB and Departmental policy.
       Update: We conducted similar testing in FY 2010 and the results are
       included in this FISMA report.

       Management Advisory: “Waste in implementation of Data Encryption
       Solution,” April 8, 2009, documented $57,000 per month wasted by
       failing to implement a purchased encryption solution and the additional
       incurring maintenance costs.
       Update: The encryption solution has not yet been fully implemented as of
       FY 2010.

FY 2008
      Report: “Compilation of Information Technology Challenges at the
      DOI,” May 2008, documented the need to rescind Secretarial Order 3244.
      Update: No action has been taken.




                                                                              57
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
